<html>
<title> - LEGISLATION ADDRESSING PIPELINE AND HYDROPOWER INFRASTRUCTURE MODERNIZATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     LEGISLATION ADDRESSING PIPELINE AND HYDROPOWER INFRASTRUCTURE 
                             MODERNIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

                           Serial No. 115-30
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-256 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan7
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
MARKWAYNE MULLIN, Oklahoma           G.K. BUTTERFIELD, North Carolina
RICHARD HUDSON, North Carolina       FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
TIM WALBERG, Michigan
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     1
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     2
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina, opening statement...........................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   223

                               Witnesses

Terry L. Turpin, Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................     6
    Prepared statement...........................................     8
    Answers to submitted questions \1\...........................   336
John Katz, Deputy Associate General Counsel, Office of the 
  General Counsel, Federal Energy Regulatory Commission..........    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................   339
Jeffrey Soth, Legislative and Political Director, International 
  Union of Operating Engineers...................................    82
    Prepared statement...........................................    85
Jeffrey Leahey, Deputy Executive Director, National Hydropower 
  Association....................................................   102
    Prepared statement...........................................   104
    Answers to submitted questions...............................   358
William Robert Irvin, President and Chief Executive Officer, 
  American Rivers, Inc...........................................   130
    Prepared statement...........................................   132
    Answers to submitted questions...............................   360
Jennifer Danis, Senior Staff Attorney, Eastern Environmental Law 
  Center.........................................................   168
    Prepared statement...........................................   170
Donald F. Santa, President and Chief Executive Officer, 
  Interstate Natural Gas Association of America..................   193
    Prepared statement...........................................   195
Andrew Black, President and Chief Executive Officer, Association 
  of Oil Pipe Lines..............................................   205
    Prepared statement...........................................   207

                           Submitted Material

Discussion Draft, H.R. ___, the Promoting Hydropower Development 
  at Existing Non-Powered Dams Act...............................   224
Discussion Draft, H.R. ___, the Promoting Closed-Loop Pumped 
  Storage Hydropower Act.........................................   232
Discussion Draft, H.R. ___, the Promoting Small Conduit 
  Hydropower Facilities Act of 2017..............................   236
Discussion Draft, H.R. ___, the Promoting Interagency 
  Coordination for Review of Natural Gas Pipelines Act...........   239

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20170503/105916/HHRG-115-IF03-Wstate-TurpinT-20170503-
  SD071.pdf.
Discussion Draft, H.R. ___, the Promoting Cross-Border Energy 
  Infrastructure Act.............................................   247
H.R. 1538, the Supporting Home Owner Rights Enforcement Act......   256
H.R. 446, To extend the deadline for commencement of construction 
  of a hydroelectric project.....................................   258
H.R. 447, To extend the deadline for commencement of construction 
  of a hydroelectric project.....................................   260
H.R. 2122, To reinstate and extend the deadline for commencement 
  of construction of a hydroelectric project.....................   262
Discussion Draft, H.R. ___, the Hydropower Policy Modernization 
  Act of 2017....................................................   265
Letter of May 2, 2017, from Thomas R. Kuhn, President, Edison 
  Electric Institute, to Mr. Upton and Mr. Rush, submitted by Mr. 
  Olson..........................................................   293
Letter of May 1, 2017, from Greg Salyer, General Manager, Modesto 
  Irrigation District, and Casey Hashimoto, General Manager, 
  Turlock Irrigation District, to Mr. Upton and Mr. Rush, 
  submitted by Mr. Olson.........................................   294
Letter of April 27, 2017, from Michael S. Webster, Executive 
  Director, Southern California Public Power Authority, to Mr. 
  Upton and Mr. Rush, submitted by Mr. Olson.....................   295
Letter of May 2, 2017, from Steve Wright, General Manager, Public 
  Utility District No. 1 of Chelan County, Washington, to Mr. 
  Upton and Mr. Rush, submitted by Mr. Olson.....................   296
Letter of April 28, 2017, from James Price, President, Jordan 
  Hydroelectric Limited Partnership, to Mr. Griffith, submitted 
  by Mr. Olson...................................................   302
Letter of May 1, 2017, from Jonathan D. Sweet, County 
  Administrator, County of Pulaski, Virginia, to Mr. Griffith, 
  submitted by Mr. Olson.........................................   306
Letter of May 2, 2017, from Marco A. Giamberardino, Executive 
  Director, Government Affairs, National Electrical Contractors 
  Association, to Mr. Upton and Mr. Rush, submitted by Mr. Olson.   307
Letter of May 3, 2017, from John Grubich, General Manager, Public 
  Utility District No. 1 of Okanogan County, Washington, to Mr. 
  Upton and Mr. Rush, submitted by Mr. Olson.....................   308
Letter of May 3, 2017, from Susan N. Kelly, President and Chief 
  Executive Officer, American Public Power Association, to Mr. 
  Upton and Mr. Rush, submitted by Mr. Olson.....................   312
Testimony of Kevin Colburn, National Stewardship Director, 
  American Whitewater, March 15, 2017, submitted by Mr. Olson....   313
Series of letters collected by the Hydropower Reform Coalition, 
  dated March 14 to 17, 2017, to Mr. Upton and Mr. Rush,\2\ 
  submitted by Mr. Olson
Letters of May 1, 2017, and July 18, 2016, from James D. Ogsbury, 
  Executive Director, Western Governors' Association, et al., to 
  Mr. Walden and Mr. Pallone, submitted by Mr. Olson.............   320
Letter of March 15, 2017, from Linda L. Dahlmeier, Mayor, The 
  City of Oroville, to Mr. Upton and Mr. Rush, submitted by Mr. 
  Olson..........................................................   331
Letter of May 3, 2017, from Thomas O'Keefe, Chair, Hydropower 
  Reform Coalition, to Mr. Upton and Mr. Rush, submitted by Mr. 
  Olson..........................................................   334
Report by FAST-41, ``FY 2016 Annual Report to Congress, Federal 
  Permitting Improvement Steering Council (FPISC),'' April 
  2017,\3\ submitted by Mr. Olson

----------
\2\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20170503/105916/HHRG-115-IF03-20170503-SD112-U1.pdf.
\3\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF03/
  20170503/105916/HHRG-115-IF03-20170503-SD114.pdf.

 
     LEGISLATION ADDRESSING PIPELINE AND HYDROPOWER INFRASTRUCTURE 
                             MODERNIZATION

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Pete Olson (vice 
chairman of the subcommittee) presiding.
    Members present: Representatives Olson, Barton, Murphy, 
Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, Long, 
Bucshon, Flores, Mullin, Hudson, Cramer, Walberg, Rush, 
McNerney, Peters, Green, Castor, Welch, Tonko, Loebsack, 
Schrader, Kennedy, and Pallone (ex officio).
    Staff present: Grace Appelbe, Legislative Clerk, Energy/
Environment; Ray Baum, Staff Director; Mike Bloomquist, Deputy 
Staff Director; Zack Dareshori, Staff Assistant; Wyatt 
Ellertson, Research Associate, Energy/Environment; Adam Fromm, 
Director of Outreach and Coalitions; Tom Hassenboehler, Chief 
Counsel, Energy/Environment; A.T. Johnston, Senior Policy 
Advisor, Energy; Ben Lieberman, Senior Counsel, Energy; Alex 
Miller, Video Production Aide and Press Assistant; Brandon 
Mooney, Deputy Chief Energy Advisor; Dan Schneider, Press 
Secretary; Sam Spector, Policy Coordinator, Oversight and 
Investigations; Madeline Vey, Policy Coordinator, Digital 
Commerce and Consumer Protection; Jeff Carroll, Minority Staff 
Director; David Cwiertny, Minority Energy/Environment Fellow; 
Jean Fruci, Minority Policy Advisor, Energy and Environment; 
Caitlin Haberman, Minority Professional Staff Member; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; Alexander Ratner, Minority Policy Analyst; Andrew 
Souvall, Minority Director of Communications, Member Services, 
and Outreach; Tuley Wright, Minority Energy and Environment 
Policy Advisor; and C.J. Young, Minority Press Secretary.
    Mr. Olson. The Subcommittee on Energy will now come to 
order. The Chair now recognizes himself for 5 minutes for an 
opening statement.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Welcome, everyone. Today the subcommittee will begin to 
review bills to modernize pipeline and hydropower 
infrastructure. We have 10 bills before us. Some have already 
been introduced while others are in discussion forum, but we 
already have an extensive record on these issues that these 
bills address.
    We begin this Congress by picking up where we left off last 
year, with hearings on the challenges we face to expand hydro 
and pipeline infrastructure. We have heard from job creators, 
contractors, labor, Tribal interests, consumers, and private 
citizens. Then we will hear from the Federal Energy Regulatory 
Commission, otherwise known as FERC, the lead agency for these 
reviews.
    As we move forward, we will continue to work with the 
States and other Federal agencies that have a role to ensure 
that we balance the need to modernize our infrastructure with 
the important safety, environmental, and consumer protections. 
We will also hear from stakeholders, both industry and citizen 
groups. I look forward to their input.
    I suspect many of these witnesses will tell us what we have 
heard for a while now: Getting these projects done has become 
an incredibly difficult process. These projects need to be 
reviewed and they need to be safe, but once we have done our 
due diligence, foot dragging is malpractice. We need to fix 
this and get it right. Together, these 10 bills represent the 
beginning of an effort to modernize our energy infrastructure, 
improve access to affordable and reliable energy, and lower 
prices for consumers. I want to thank the witnesses for 
appearing today before us and look forward to their testimony.
    [The proposed legislation appears at the conclusion of the 
hearing.]
    Mr. Olson. I now yield to the ranking member, Mr. Rush from 
Illinois.
    Mr. Rush. Good morning. Thank you, Mr. Chairman.
    Mr. Chairman, before I begin, I just want to make a point. 
I am really concerned about Chairman Upton and our friend 
Representative Long. I understand that he is over at the White 
House, and I just wonder, is he OK? Shall we have a moment of 
prayer for him or a moment of silence?
    Mr. Olson. He is doing just fine. He is OK.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, I want to thank you, Mr. Chairman, for 
holding today's hearing on expediting the permitting process 
for natural gas pipelines and hydropower projects. Mr. 
Chairman, the legislation before us streamlining natural gas 
pipelines appears to suffer and to offer a solution in search 
of a problem. FERC data shows that between 2009 to 2015 over 
100 million natural gas pipeline projects were approved 
spanning over 3,700 miles in 35 States for a total capacity of 
over 45 billion cubic feet per day, and an overwhelming 91 
percent, Mr. Chairman, of applications were decided within 12 
months.
    More importantly, Mr. Chairman, without a quorum at FERC no 
new projects will get approved, so rather than proposing 
changes to a process that already works we should be reaching 
out to the administration and urging them to submit candidates 
for the Commission as well as for the other departments that 
are under our jurisdiction that are still waiting to fill 
important vacancies.
    Mr. Chairman, there may be some areas where we might be 
able to find bipartisan support and compromise such as 
streamlining the licensing process for hydropower 
infrastructure. However, Mr. Chairman, and as the April 27th 
letter submitted to you and Chairman Walden from myself, 
Ranking Member Pallone, and other colleagues indicated, it is 
critical for the subcommittee to hear from other important 
stakeholders who will be directly impacted by these changes 
including the States, resource agencies, and Native American 
Tribes.
    Mr. Chairman, I also have concerns with the cross-border 
bill which would shift the burden of proof to opponents of a 
project to show that the project is not in the public interest. 
This bill also limits the scope of review for large 
transnational pipelines to only a tiny section of a project 
that physically crosses the border no matter how many 
communities, States, and properties a pipeline might actually 
traverse.
    Mr. Chairman, as the recent Oroville Dam failure 
demonstrated, expediency must not trump safety. Public comment 
and engagement must continue to play a vital part of any 
permitting process. So Mr. Chairman, before moving forward on 
these bills, many which would make it easier for private 
companies to take control of the use of waters belonging to the 
people of the United States, it is vital that we hear from 
witnesses who can provide expert testimony on how taking 
authority away from other agencies and consolidating power and 
decision making authority solely within the FERC might impact 
the public interest.
    Mr. Chairman, I want to thank you and I yield back the 
balance of my time. Mr. McNerney, I want to----
    Mr. McNerney. I thank the gentleman for yielding. While 
there are a number of bills under discussion today, I am going 
to focus my remarks on hydropower. We know that worldwide 
hydropower generates about six percent of electricity and about 
half of the renewable energy generation. Hydropower generation 
does not produce carbon emissions. As a Nation we must move 
away from harmful fossil fuels and continue to bolster our 
renewable and clean energy generation sources if we are to 
combat and mitigate the effects of climate change.
    We also know that FERC will manage approximately 500 
hydropower projects by 2030 that represent about 18,000 
megawatts of generation. The current process clearly needs 
improvement, so what is it that needs to be done--the 
accountability of all stakeholders, timely decisions and the 
sharing of information, protection of our Nation's waterways, 
habitat, and environment.
    Now the Federal Power Act has worked OK in many ways over 
the last 90 years, but I have heard from stakeholders over the 
entire spectrum that the process could be better. I have heard 
from FERC, from the resource agencies, from applicants, from 
Tribes, from States, from NGOs and others. I believe that we 
can find common ground, but we need to work on a bipartisan 
basis to enact real solutions. If one side or the other imposes 
its will on the other, the solutions won't work. I yield back.
    Mr. Olson. The gentleman yields back. The Chair calls upon 
the gentleman from North Carolina, Mr. Hudson, for 3 minutes.

 OPENING STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. Thank you, Mr. Olson. I would like to thank 
Chairman Upton and Ranking Member Rush for holding today's 
hearing on improving America's hydropower systems. This issue 
resonates strongly with me because North Carolina has a rich 
history of hydropower. Our Catawba River was among the first 
rivers to be developed for hydropower. In North Carolina alone 
it generates enough electricity to power 350,000 homes each 
year.
    This low-risk, high-reward technology could provide 
significant benefits, yet the potential remains uncaptured in 
part because of a prohibitive permitting process. I am pleased 
to continue working with my colleagues, Congresswoman DeGette, 
on promoting the Small Conduit Hydropower Facilities Act to 
build on this committee's successful legislative efforts and 
reduce the total review process time for small scale hydropower 
by 75 percent, from 60 days down to 15 days. Reducing 
regulatory burdens is a common sense way to increase our supply 
of clean and affordable electricity.
    Thank you again, Mr. Chairman, for including our 
legislation on today's agenda. I look forward to working with 
you to advance this initiative through the committee, and I 
yield back.
    Mr. Olson. The gentleman yields back. The Chair now, in the 
spirit of bipartisanship, calls on anyone from the Democrat 
side for a 3-minute statement like Mr. Hudson.
    Oh, I didn't see Mr. Pallone. I am sorry. Five minutes for 
the ranking member of the full committee, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. Thank you, Mr. Chairman, for 
holding the hearing on the ten bills addressing hydropower and 
pipeline infrastructure. Hydroelectric power is among the most 
mature generating technologies. It provides virtually carbon-
free base load energy at low cost to our manufacturing sector 
and to residential and commercial consumers and hydroelectric 
power is an important asset we need to maintain. At the same 
time, it has major impacts on fish and wildlife populations, 
water quality, water supply management, and other important 
physical and cultural resources if poorly operated or cited.
    While hydroelectric power licenses depend on rivers for 
free fuel, those rivers belong to all Americans not just those 
who sell or buy the power generated from it. Hydroelectric 
licenses have fixed conditions that generally remain unchanged 
during the 30 to 50 years that they are in force. Licenses also 
benefit from unlimited automatic annual extensions after their 
license has expired if a new license has not been issued and as 
a result, the impacts of these hydropower dams often go 
unaddressed for more than half a century.
    For those facilities first licensed before enactment of the 
National Environmental Policy Act, the Clean Water Act, and the 
Endangered Species Act in the 1970s, the licensing process 
certainly can be quite rigorous. Sometimes the necessity of 
addressing these complex issues also makes the process time 
consuming and expensive as new license conditions will require 
significant upgrades to old facilities to bring them in line 
with modern environmental laws and regulations.
    So, Mr. Chairman, we want to work with you on hydroelectric 
licensing reform with the goal of expediting the process while 
maintaining the fundamental principles of balance in the 
process and this would allow us to maximize the benefits of 
hydroelectric power and expand it where it is most appropriate 
to do so.
    Our hydro hearing in March was one of the most constructive 
we had and that was very encouraging. It was also incomplete 
because we did not hear from the other stakeholders who were 
central to relicensing. We didn't hear from Federal resource 
agencies, States, and Tribes, and this is something Members on 
our side feel strongly about, which is why we wrote to you.
    And you, Mr. Chairman, and Chairman Walden, last week we 
wrote to you requesting a hearing because we understand more 
fully the challenges facing the hydropower industry and the 
rivers the industry relies upon before we update our policies, 
but we also gain a more thorough appreciation of the impacts of 
hydroelectric generation on others who use the rivers--Tribes, 
fishermen, farmers, boaters, and many more--to ensure their 
interests are treated fairly in the process
    So I just wanted to turn my attention to the two nonhydro 
bills before us today. First, we have a discussion draft that 
amends the Natural Gas Act and resembles similar legislation we 
saw last Congress as well as proposals in prior years. The 
purported goal of the draft is to enhance agency coordination 
and speed up FERC's review of natural gas pipelines.
    While I think we could all support the idea of making 
permitting more efficient generally, this bill like its 
predecessors remains a solution in search of a problem. The 
fact is that in the last 3 years FERC has approved more 
pipelines each year than the one preceding it, with roughly 90 
percent of pipeline projects being certificated within 1 year.
    And I will admit that, since President Trump took office, 
the number of approvals has taken a dive, but that has nothing 
to do with the permitting process. Instead, approvals are down 
because FERC has lacked a quorum for 3 months and the President 
has yet to nominate anyone to any of the three open slots. To 
make matters worse, FERC will soon have only one Commissioner 
when Commissioner Honorable's term expires at the end of June. 
What that means in terms of natural gas projects is that FERC 
has not approved a gas pipeline project since February 3rd.
    So if the goal of my colleagues on the other side of the 
aisle is truly to speed up the FERC approval of gas pipelines, 
perhaps they should pick up the phone and ask President Trump 
to nominate at least a couple of new FERC Commissioners so they 
can begin to consider applications for these projects once 
again. Until then, I find any conversation about needing 
legislation to expedite pipeline approvals at FERC untimely.
    The Cross-Border Energy discussion draft also looks very 
similar to legislation we debated at length last Congress. This 
proposal eliminates the current presidential permitting process 
for energy projects that cross the U.S. border, substituting it 
with a weaker environmental review process that in effect 
rubber-stamps applications.
    With President Trump already approving the Keystone XL 
pipeline and signaling support for new pipelines and other 
energy projects around the country, it is unclear to me why 
Republicans feel it is necessary to strip the President of his 
approval authority. Do my colleagues on the other side of the 
aisle honestly not have confidence in President Trump to make 
rational decisions on major energy projects? While I certainly 
have many concerns and would certainly not fault my Republican 
friends for any trepidation on their part, I still believe that 
this authority should continue to rest with the President of 
the United States, regardless of whether his name is Obama or 
Trump.
    So I want to thank our witnesses for coming today, 
particularly Ms. Danis, who is from New Jersey and is here 
representing, among others, the New Jersey Conservation 
Foundation. Thank you, Mr. Chairman.
    Mr. Olson. The gentleman yields back. We now conclude with 
Member opening statements. The Chair would like to remind all 
Members that, pursuant to the committee rules, all Members' 
opening statements will be made part of the record, and I want 
to thank our witnesses for being here today and taking your 
time to testify before the subcommittee.
    Today's hearing will consist of two panels. Each panel of 
witnesses will have the opportunity to give an opening 
statement followed by a round of questions from the Members. 
Once we conclude the first panel, we will take a few minutes to 
set up the second panel.
    Our first witness panel for today's hearing includes Mr. 
Terry Turpin. Mr. Turpin is Director of the Office of Energy 
Projects at FERC. And Mr. John Katz. Mr. Katz is a Deputy 
Associate General Counsel for the Office of General Counsel at 
FERC, as well. We appreciate you being here today. We will 
begin by recognizing you, Mr. Turpin, for 5 minutes to give an 
opening statement.

   STATEMENTS OF TERRY L. TURPIN, DIRECTOR, OFFICE OF ENERGY 
PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION, AND JOHN KATZ, 
    DEPUTY ASSOCIATE GENERAL COUNSEL, OFFICE OF THE GENERAL 
         COUNSEL, FEDERAL ENERGY REGULATORY COMMISSION

                  STATEMENT OF TERRY L. TURPIN

    Mr. Turpin. Thank you. Good morning, Vice Chairman Olson, 
Ranking Member Rush, and members of the subcommittee. My name 
is Terry Turpin and I am Director of the Office of Energy 
Projects at the Federal Energy Regulatory Commission. The 
Office is responsible for taking a lead role in carrying out 
the Commission's duties in siting infrastructure projects 
including non-Federal hydropower projects, interstate natural 
gas facilities, and liquefied natural gas terminals. Thank you 
for the opportunity to appear before you to discuss drafts of 
the Promoting Interagency Coordination for Review of Natural 
Gas Pipelines Act and the Promoting Cross-Border Energy 
Infrastructure Act.
    As a member of the Commission's staff, the views I express 
in my testimony are my own and not necessarily those of the 
Commission or any individual Commissioner.
    The Commission is responsible under Section 7 of the 
Natural Gas Act for authorizing the construction of interstate 
natural gas facilities, and under Section 3 of the Natural Gas 
Act for authorizing the construction of import/export 
facilities. The Commission acts as the lead agency for the 
purpose of coordinating all applicable Federal authorizations 
and as the lead agency for complying with the National 
Environmental Policy Act.
    The environmental review is carried out through a process 
that allows cooperation from numerous stakeholders including 
Federal, State and local agencies, Native Americans, and the 
public. In order to maximize the engagement between the 
applicant and these various stakeholders, the Commission has 
developed its pre-filing review process.
    The Commission's current approach allows for a systematic 
and collaborative process and has resulted in substantial 
additions to the Nation's natural gas infrastructure. Since 
2000, the Commission has authorized nearly 18,000 miles of 
interstate natural gas pipeline totaling more than 159 billion 
cubic feet per day of transportation capacity, over one 
trillion cubic feet of interstate natural gas storage, and 23 
facility sites for the import or export of LNG.
    Over the past 10 years, the Commission has also issued 15 
authorizations related to natural gas border crossing 
facilities. These results have been facilitated through the 
environmental analysis under the National Environmental Policy 
Act, which I believe has been improved through the Commission's 
approach through the pre-filing review phase of the project.
    Regarding the discussion drafts, I note that many of the 
comments of previous office directors have been incorporated on 
similar past proposals and have been incorporated into these 
versions. As I explain in my testimony, the discussion draft on 
interagency coordination would alter the Natural Gas Act to 
include many of the existing practices the Commission currently 
uses successfully in its review process.
    The discussion draft addressing cross-border energy 
infrastructure would add oil pipeline border crossings to the 
Commission's jurisdiction and would remove requirements for 
presidential permits for both oil and natural gas border 
crossings. Staff already has substantial expertise in analyzing 
natural gas pipeline border crossings and this could be 
extended to oil crossings under the final rules the Commission 
would be required to issue.
    This concludes my remarks on the discussion drafts 
addressing interagency coordination and cross-border 
infrastructure. Commission staff would be happy to provide 
technical assistance as you move forward with your 
consideration of this legislation. I would be pleased to answer 
any questions you may have. Thank you.
    [The prepared statement of Mr. Turpin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Mr. Turpin, thank you very much.
    The Chair now calls upon Mr. Katz. You are recognized now 
for 5 minutes for an opening statement.

                     STATEMENT OF JOHN KATZ

    Mr. Katz. Thank you Mr. Chairman, Ranking Member Rush, 
members of the committee, it is a pleasure to be here before 
you today, and thank you for the invitation to testify. My name 
is John Katz. I am a member of the staff of the Federal Energy 
Regulatory Commission, and as such my comments represent my own 
opinions and not necessarily those of the Commission or of any 
individual Commissioner. I am going to focus on the bills that 
involve hydro aspects.
    The Commission regulates over 1,600 hydro projects which 
involve more than 2,500 dams. The projection of these hydro 
projects is some 56 gigawatts which is over half of the hydro 
capacity of the United States. The United States does a little 
bit better than the figure Mr. McNerney quoted for the world, 
hydro is eight percent of U.S. capacity.
    Hydro is a renewable resource. It affects many other 
resources including irrigation, flood control, water supply, 
fish and wildlife, and recreation, and these are matters that 
Congress has asked the Commission to balance when it issues 
licenses. The key thing in getting a hydro project licensed 
quickly is probably site selection. This is a matter within the 
control of the developers, so good development is what is going 
to carry the day not the Government, not the other interested 
parties.
    The community needs to be involved. Stakeholder involvement 
is very key. Issues need to be identified early and developers 
need to work with the community and the stakeholders to try and 
resolve matters so that things can be done in quick manner. A 
good example of this is the 400-megawatt Gordon Butte Project. 
It is a pumped storage project in Montana. That project was 
licensed in 14 months and the developer of the project recently 
appeared at a workshop at the Commission.
    And while on the one hand he was very complimentary of the 
efforts of Commission staff, he said that the key to getting it 
done in time was that the Commission had essentially turned him 
loose to allow him to develop a process that worked for him and 
his stakeholders, and that is something that the Commission 
does on a regular basis.
    The Commission does its best to be efficient and effective. 
Since 2003, the Commission has issued 82 original licenses, and 
of those about 25 percent have been licensed in 2 years or less 
with about a 1.4-year median processing time at the Commission.
    Congress has done a lot to help the Commission in carrying 
out its job. In the 2013 Hydropower Regulatory Efficiency Act, 
Congress provided that certain qualifying conduit projects 
could be completely exempt from Commission regulation. The 
Commission has approved or signed off on 83 of those projects 
since then.
    Congress also allowed the Commission to consider small 
projects at an increased level. They used to be limited to five 
megawatts and Congress increased that to ten megawatts. There 
have been seven such projects filed since the passage of that 
act. Finally, Congress allowed the Commission to extend the 
time of preliminary permits which are what an applicant gets to 
study a project, and the Commission has approved 57 extensions 
or permits since that time.
    Commission staff supports the goals of the legislation 
before you to the extent that they improve efficiency, enable 
the development of new infrastructure, support balanced 
decision making, and reduce duplicative oversight. We are 
concerned only to the extent that additional bureaucracy would 
add to the process. Commission staff and other agencies are not 
in my experience looking to do additional processes or things 
that will slow down development, but rather want to pare back 
these processes to the extent we possibly can.
    Finally, I want to note that there are several bills that 
provide extensions of the commencement of construction 
deadlines for certain projects and those bills are all 
consistent with Commission policy. Thank you very much and I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Katz follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Katz, for your testimony, and we 
will now move to the question-and-answer session of the 
hearing. I will begin the questioning by recognizing myself for 
5 minutes. Again, welcome, Mr. Turpin and Mr. Katz from Texas 
22.
    I am very concerned about the lack of a quorum at FERC and 
the negative impact it could have on pending pipeline projects. 
The administration and the Senate have to make this a priority. 
My question is how is the Commission handling the workload? 
What types of actions have been delegated to staff which 
requires sign-off from the Commissioners? Mr. Turpin?
    Mr. Turpin. Thank you. The workload in a large part for the 
things that are delegated, such as the need for reviews and the 
processing of applications, continues unabated. Staff is 
working as hard as it ever has even when there was the quorum. 
Issues, there are issues related to gas projects where the 
offices don't have a lot of delegated authority and staff is 
preparing those drafts for consideration when there is a 
quorum.
    And on the hydro side, there is a bit more delegated 
authority and there are more orders and decisions that can be 
made on uncontested cases.
    Mr. Olson. Thank you, sir. Another question for you, sir, 
Mr. Turpin. A few years ago, GAO analyzed major pipeline 
projects. They found that you can take up to 2.5 years for a 
FERC certificate. It averaged 568 days. Actually that is about 
the study in the hearing last Congress.
    So if you haven't read the study, the report, recently, I 
would like to know even if you haven't, what are the biggest 
sources of friction there are for pipeline approval, and number 
two, what have you all changed in recent years to make this 
process faster?
    Mr. Turpin. I haven't read that study. In looking back at 
the data for all issuances for the Commission since 2009, on 
average it is 88 percent of the projects get issued within 1 
year. Of course that encompasses a lot of the projects that are 
very small in scope and therefore move faster. The larger and 
more complex a project the more time it tends to take just as a 
function of the higher number of stakeholders that are engaged 
and the more complex issues that are raised.
    In terms of what are the points of friction, in general 
really it is the development of the information. As Mr. Katz 
alluded to with hydro, a site selection on that is a major 
determining factor and it is the same for pipelines. The route 
selection is a very large factor and which is why the 
Commission developed the pre-filing process. It allows the 
applicants to come in and engage the stakeholders well before 
they have sort of finalized the route to get input on where the 
best route may be that addresses all the issues. And that 
allows them then, once they do file the application, to move 
forward.
    But it is the development of that information along the 
route as well as the information related to the construction 
and design of the facilities that usually are the stumbling 
block for the regulating agencies.
    Mr. Olson. Thank you. Mr. Katz, I am not going to leave you 
out of the questioning. What are the opportunities to expand 
the Nation's hydropower capacities, specifically what is the 
greatest impediment to installing power generators on 
nonpowered dams?
    Mr. Katz. I think there are significant opportunities and I 
think as you alluded to the greatest opportunities or at least 
the simplest opportunities are adding capacity to nonpower dams 
including Government dams, those operated by the Bureau of 
Reclamation and the Army Corps of Engineers. I think that the 
greatest impediment to that are failures to obtain consensus 
among the various stakeholders where people are comfortable.
    And for example, we have recently licensed a project in 
Pennsylvania where everybody was very comfortable with the 
project, they felt it was good for the environment and good for 
the energy distribution in the area and that was able to go 
through very quickly. Where you have stakeholders who are not 
comfortable and raise issues, whether it is State agencies, 
Federal agencies, or other entities, that can slow down the 
process radically.
    Mr. Olson. Further question: What types of technologies are 
being developed to improve safety, efficiency, and lessen the 
environmental impact of hydropower, and what can Congress do to 
help further innovation?
    Mr. Katz. I am not an engineer, so I am not expert in the 
types, but I know there are----
    Mr. Olson. Me neither.
    Mr. Katz. Mr. Turpin knows more about engineering generally 
than I do, but I think Mr. Leahey and perhaps some of the 
witnesses who come later may be able to give you more detail. 
But I know that there is development ongoing, some of which has 
been funded by the Department of Energy to help develop fish-
friendly turbines and other types.
    There is one new project that is using what is called the 
Archimedes' screw technology which is brand new. Folks have 
been looking into wave and tidal energy projects. These are all 
new, promising technologies that can continue to be explored.
    Mr. Olson. Thank you. My time has expired and I now I call 
upon the ranking member of the subcommittee, Mr. Rush, for 5 
minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. To Mr. Turpin, 
a recurring theme in all of these bills is that the 
environmental protection concerns are given a backseat in order 
to expedite applications for both natural gas pipelines and 
hydropower licenses. In your opinion, does FERC staff have the 
necessary expertise to determine the scope of environmental 
review needed to satisfy NEPA obligations for natural gas 
permits?
    Mr. Turpin. Thank you. Thank you, sir. I think for the 
purposes of determining the Commission's NEPA obligations, yes. 
Commission staff is well versed in that. We have a large staff 
in the Office of Energy Projects that are archeologists, 
engineers, biologists, environmental protection specialists, 
and with that staff we can very well do that job for the FERC's 
needs.
    However, the NEPA, you know, even though NEPA applies to 
all Federal agencies, being a process-based statute is the 
process we all have to comply with, but different agencies with 
other jurisdictions might have different obligations or 
jurisdictional coverage and FERC staff is not versed in those 
statutes for other agencies.
    Mr. Rush. In regards to hydropower licensing does FERC have 
any statutory mandate to protect water quality, wildlife, or 
access to public lands as in the case for some of the other 
agencies that are made subordinate to FERC with this bill?
    Mr. Katz. The Commission has the obligation under the Part 
1 of the Federal Power Act to consider all aspects of the 
public interest. Did I answer your question, sir?
    Mr. Rush. No, you didn't.
    Mr. Katz. I am sorry.
    Mr. Rush. Do you have any statutory mandates?
    Mr. Katz. Yes, we do. The Federal Power Act requires the 
Commission to consider all aspects of the public interest.
    Mr. Rush. All right.
    Mr. Turpin, in your opinion, does FERC currently work 
effectively with the other agencies throughout the natural gas 
application process and would altering FERC's role from one of 
collaboration with other agencies to, quote, policeman, end of 
quote, role of overseeing and monitoring other agencies' 
congressionally mandated duties to improve coordination and 
would this result in faster application decisions?
    Mr. Turpin. As noted in my testimony, the FERC pre-filing 
process is collaborative. We engage a lot of agencies. It is 
the whole point of the approach and I think we are very 
effective at doing that. Most agencies are very willing to 
participate and to engage with staff, but they have their own 
resource constraints, they have their own statutes they have to 
meet, and it is those that drive their needs more so than the 
Commission's schedule that is put out.
    Mr. Rush. Well, an extension of that question is are there 
ever instances of a natural gas permitting application being 
delayed because an applicant has not submitted all of the 
necessary information, and if so, how would this legislation 
help expedite the process in those cases where agencies are not 
provided with timely and complete information necessary to 
perform congressionally mandated project reviews? And if you 
have any recommendations I would like to hear them in order to 
address this issue.
    Mr. Turpin. The best thing in terms of generating the 
information is the early engagement of all the stakeholders. 
The earlier agencies can get involved and define what 
information needs they might need for their mandates the 
better, because that gives the applicant enough time to go out 
and find that info, develop those studies.
    So, you know, the pre-filing process allows that. The 
legislation encourages that same early engagement and I think 
that is the best path forward for trying to address those 
issues.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thanks, Mr. Chairman, and thank you very 
much to our witnesses for appearing before us today.
    Mr. Katz, if I could ask maybe a follow-up from your 
earlier statement. You had mentioned that there was a project 
out in Montana, a hydro project, and there is also because of 
the area of where it was and with the selection of the site 
that I believe that you said that the individual said that they 
were turned loose to get this project done.
    How often does that happen that folks out there can 
actually do something like that? And when they say get turned 
loose, how fast can that happen in the permitting and 
everything else to get a project done?
    Mr. Katz. Sure. It is hard to give an exact time because it 
really depends on what information is provided and what the 
issues are. What I meant by that was the Commission has three 
licensing processes. Two of them, the integrated licensing 
process and the traditional license process, have fairly 
specific timeframes and details of things you have to do.
    There is another process called the alternative licensing 
process which allows the stakeholders to essentially set up 
their own licensing process the way they want to do it, and the 
Commission is always open to allowing people to do that if that 
is something that they can agree upon it. In this instance, the 
developer was very forward-looking and positive and took the 
reins in his own hands and got a lot done very quickly.
    Mr. Latta. So how often can somebody do that alternatively? 
Is that a very frequent, infrequent?
    Mr. Katz. It is less frequent than the other two processes, 
but it is always available. I think it is a question of what 
the parties think will work best. For example, the traditional 
process tends to work best for smaller projects because it sets 
forth more exact deadlines but has less of the collaborative, 
sort of going out there and meeting and doing a lot of 
stakeholder involvement, so it can be less expensive and easier 
for smaller projects and those by developers with less funding.
    The alternative process, however, can be shaped in any way 
that the stakeholders think is appropriate provided that they 
give the Commission a complete record at the end of the day. 
And in the Gordon Butte case that is exactly what they did.
    Mr. Latta. OK. Let me follow up with you again, Mr. Katz. 
How did the permitting timelines for hydropower compare to 
other types of renewable energy developments such as wind and 
solar projects?
    Mr. Katz. I think they are significantly longer.
    Mr. Latta. Do you believe that the permitting process could 
be improved to level that playing field, and how?
    Mr. Katz. Absolutely.
    Mr. Latta. OK. And how would that be permitted, how would 
we level that playing field?
    Mr. Katz. I don't have exact prescriptions. I think some of 
the things in the legislation before us would go a ways towards 
doing that. Whatever we can do to reduce duplication to get 
everyone on the same page at the same time will help. What 
tends to slow things down are if one agency is not finished at 
the same time another agency is or if it feels it needs to do 
additional environmental work or other things so that then 
things are not sequential, or things are sequential--I am 
sorry--rather than being done at the same time to the extent 
that it can be one process that is run in an orderly and 
efficient manner that will cut down the time.
    Mr. Latta. Would you say there is a lot of duplication in 
the Federal process then between agencies who have that 
duplication?
    Mr. Katz. There is some, yes.
    Mr. Latta. Let me ask also, not to pick on you, Mr. Katz, 
when there are disputes about a potential condition, the 
licensing stakeholders are entitled to a trial-type hearings on 
the facts and the evidence. It is clear that the current 
process under the Federal Power Act has not worked as it has 
been intended. It requires so much time, money, and staff 
resources it is rarely used if ever. How many types of these 
trial-type hearings have been conducted to your knowledge?
    Mr. Katz. Again Mr. Leahey may know exactly, I suspect he 
does. To my knowledge it is in the area of five or six. It is 
not a lot. Those are not conducted before the Commission. To 
this point they have been conducted before administrative law 
judges designated by the agencies that impose the mandatory 
conditions that are the subject of the hearing, so the 
Commission doesn't have detailed knowledge about them.
    Mr. Latta. When you say five or six, is that five or six a 
year or five or six over time?
    Mr. Katz. I think total. Again I hesitate to look over at 
Mr. Leahey. He will know the number, but it is not a large 
number.
    Mr. Latta. OK. And then, the Commission is responsible for 
assessing whether it would be responsible include conditions in 
the project license. Shouldn't the Commission take the lead 
with these trial-type hearings?
    Mr. Katz. It is possible. The bottom line though is that 
those conditions are mandatory and the Commission has no 
authority to not include them in the license. So the question 
whether the trial-type hearings do anything that the Commission 
can act upon at the end of the day, because as long as they are 
mandatory whether the trial is at the Commission or not it 
doesn't change the result.
    Mr. Latta. Thank you very much. And Mr. Chairman, my time 
has expired and I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from California, Mr. McNerney, for 5 
minutes.
    Mr. McNerney. I thank the chairman. Mr. Katz, California 
and FERC entered into an Memorandum of Understanding regarding 
hydropower. Can you point to any significant benefits that have 
resulted from this MOU as it relates to hydropower licensing 
and relicensing?
    Mr. Katz. I think that the efforts there were made to sort 
of process things in a sequential time. I know California has 
had budgetary difficulties so that the State agencies have not 
had the resources that they would like to be able to devote to 
all of the hydropower projects. And the sense, I think, of the 
MOU was to get things done in an orderly and sequential 
fashion. I think it has done some good in that regard.
    Mr. McNerney. So it is mostly to benefit the State 
processes?
    Mr. Katz. Yes, I think so. I mean, it also, I believe the 
MOU called upon to the extent possible for the environmental 
reviews of the State and the Commission to be sequential. I am 
sorry, I keep saying sequential--to be done at the same time 
and California did not have to do extra work at the end of the 
day, but ultimately that is a call for the State to make.
    Mr. McNerney. OK. You did use the word sequential before, 
but you meant concurrent?
    Mr. Katz. Exactly, in this instance, yes. Concurrent 
reviews are always more efficient than sequential reviews.
    Mr. McNerney. So FERC currently attempts to complete 
studies on a concurrent basis. The Hydropower Modernization Act 
draft language more or less requires concurrent studies prior 
to, or concurrent with preparation of the FERC environmental 
requirements from the NEPA. Is this a good approach, or what is 
the best approach we can take to get concurrent studies?
    Mr. Katz. I think it is a reasonable approach. The bottom 
line is, however, that both as to State agencies and other 
Federal agencies, they have their statutory mandates which they 
need to satisfy and there is nothing in the current Federal 
Power Act or in the draft legislation that would preclude those 
agencies from taking the time they need and from performing 
additional reviews if that is what they feel they need to 
satisfy their statutory mandates.
    Mr. McNerney. So you feel that concurrent requirements 
aren't going to throw environmental protections aside or blunt 
them to some degree?
    Mr. Katz. I did not see anything in the idea of concurrent 
reviews that would undercut environmental protection.
    Mr. McNerney. Well, what are the areas of improvement under 
the integrated licensing process?
    Mr. Katz. I am sorry. Could you ask the question again?
    Mr. McNerney. What are areas of improvement under the ILP?
    Mr. Katz. There is probably a variety of improvements. I 
think mainly they involve on the ground aspects rather than 
necessarily regulatory or statutory changes. I think getting 
people on the same page and getting them to reach agreement on 
what sort of studies need to be done and what the work is that 
is necessary to develop a full understanding of a hydro project 
is key. And in some instances folks reach that agreement and 
proceed very quickly and other instances they greatly disagree 
and I am not sure that there is really much that can be done by 
statute or regulation to force people who have different 
statutory authorities to agree.
    Mr. McNerney. OK. How often do the licensees have to 
utilize the FPA's authority for automatic year-to-year license 
extensions?
    Mr. Katz. It is not a question of something that a licensee 
can use. What the statute provides is that if a license expires 
and the Commission has not yet been able to issue a new license 
then what is called an annual license is automatically issued, 
and I can't give you a percentage. I would be glad to get that 
information back if you want it, but it is not unusual.
    Mr. McNerney. Moving on, I have heard from a lot of 
stakeholders who say that agencies can improve with information 
sharing. Could you describe the information sharing process as 
it relates to the study process?
    Mr. Katz. Sure. I mean the Commission believes in a very 
transparent and an open process. There is no secret information 
on hydro projects. As studies are done they are filed with the 
Commission. They are available to all stakeholders. Often there 
are study review meetings under the ILP, for example, where 
everybody sits down and goes over the study, discusses its 
merits, its demerits, whether there is further information 
done. So transparency is an absolute key to the hydro licensing 
process.
    Mr. McNerney. Well, could there be any value to having 
stakeholders support a person to person type manager dedicated 
to particular bases throughout the country to facilitate the 
processes?
    Mr. Katz. I am not certain about that. I would have to know 
more about the proposal.
    Mr. McNerney. OK, all right. My time has expired, Mr. 
Chairman. I will yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from Pennsylvania, Dr. Murphy, for 5 
minutes.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Turpin, the Natural Gas Act requires a Commission 
review whether a proposed interstate pipeline is necessary or 
desirable in the public interest. It also requires the 
Commission to set rates charged for interstate pipeline service 
to be just and reasonable. So let me ask another area here, 
does the Commission take into account jobs and economic impact 
as it reviews the public interest?
    Mr. Turpin. Well, the criteria that the Commission 
considers--and it is a decision by the five, or when there are 
five, sitting Commissioners--are laid out in the 1999 
certificate policy statement. My office is really focused on 
generating the environmental impacts associated with 
construction of a project and in gathering the data from the 
application that the applicants put forward on----
    Mr. Murphy. Are jobs considered at all, impact upon 
employment?
    Mr. Turpin. I can't say what each individual Commissioner 
considers.
    Mr. Murphy. What about you?
    Mr. Turpin. I don't have a say in that. I generate the 
information and I pass--the NEPA document is not a decisional 
document.
    Mr. Murphy. But in terms of the information generated, you 
don't put down impact upon jobs, employment, those things?
    Mr. Turpin. In the NEPA document there are socioeconomic 
analyses that looks at construction jobs, looks at impacts to 
the area for lodging, traffic, for those localized impacts.
    Mr. Murphy. OK, thank you. How often has the Commission 
used its authority under Section 5 of the Natural Gas Act to 
review the rates and require prospective changes when the rates 
are no longer just and reasonable?
    Mr. Katz. The Commission does not often do that. The 
Commission has in recent years proposed to look at a couple of 
pipelines under Section 5, but it is not something that occurs 
very often.
    Mr. Murphy. Why is that?
    Mr. Katz. I think the Commission has not seen instances 
where pipelines appear to be charging excessive rates. 
Certainly if people complain about it and come before the 
Commission and say you need to look at this pipeline rate 
because it is excessive that is something Commission staff 
would look at. As I said that is not Terry and my area of 
expertise, but I am not aware that it occurs very often.
    Mr. Murphy. Are you aware in your areas of expertise 
looking at any of the things of impact, economic impact and 
employment issues too?
    Mr. Katz. If you are asking me, yes. Terry said yes, the 
Commission looks at all the information that is provided to it. 
In a case of if information is concerning increased employment, 
yes, the Commission would have that information before it to 
consider.
    Mr. Murphy. If it is there, you are saying?
    Mr. Katz. Yes. I mean the Commission is not in the best 
position to determine how many people a pipeline company is 
going to hire. The company is in the best position to know that 
and if it provides that type of information to the Commission 
then it is in the record for Commission consideration.
    Mr. Murphy. But that is not something you necessarily 
request. If they provide, it you have it; if they don't, you 
don't?
    Mr. Katz. I am not aware of the Commission's specifically 
requesting that.
    Mr. Murphy. So what I am concerned about here is, of 
course, that these are jobs, they are good-paying jobs where 
people are building pipelines whether they are the engineers, 
the operating engineers, the welders, whatever that might be, 
those are pretty valuable jobs that have initial impact upon 
employment longer term, I would say, than its maintenance of 
the pipeline, but the same thing for hydroelectric power, too.
    I mean, we look at those things as important to make sure 
we are reviewing those. Well, it is something I believe we 
should be looking at as well and hope we can get to that 
future. Mr. Chairman, I will hold off on other questions for 
now and wait for the next panel. Thank you. I yield back.
     Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from California, Mr. Peters, for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. Thank you very much 
for being here. You know, as someone who--one of the reasons I 
ran for Congress was to deal with climate change, and I am 
excited to be on this committee. I am new to it. I don't 
understand why more people on our side of the aisle aren't 
flipping out about how long it is taking to do hydro. It is one 
base load that is carbon-free and I just, I am interested in 
understanding kind of what the obstacles are.
    Let me say that one thing that I thought was interesting 
about your response to the chairman about what the obstacles 
are, Mr. Katz, is that you talked about stakeholders not 
environmental issues and that the obstacle was getting 
stakeholders to agree. In my mind as a former environmental 
attorney that is an extremely subjective kind of standard to 
try to reach. It is something that can vary greatly depending 
on the group of people you get in the room and it is also 
something that has got to scare the heck out of investors who 
are looking for some sort of certainty at the end of the day.
    I am not going to be able to--I am just really interested 
in working the problem, and again I am not going to be able to 
do that in my 3 minutes and 49 seconds with you. But I just 
would say that it seems to me that maybe we could identify some 
more objective criteria so that we protect rivers, we protect 
fish and wildlife, but in a way that is more objective and I 
think that would help us. Just instinctively it seems to me 
that that would help us save some time.
    One thing you did say about in reaction to some of the 
materials before us is that you are concerned that some of it 
would add bureaucracy. And I would like to know now what in 
here would actually add to the bureaucracy? What is your 
concern that might actually slow us down?
    Mr. Katz. Sure. And let me say in addition in response to 
your initial comments that I think it is difficult to have 
objective environmental criteria since every hydro site is 
different, but I agree with you that being as objective as you 
can is a good goal. And one of the things in the hydro area is 
that there is what we tend to call shared decision making. So 
this is not a matter where the Commission gets a hydro 
proposal, it reviews it, it approves it or doesn't approve it 
and it is done.
    There are instances where other Federal agencies have the 
right to impose mandatory conditions; the States have the right 
to impose mandatory conditions under the Clean Water Act, so 
those are the things when I talk about the stakeholders. The 
stakeholders include those agencies that have a right to 
participate in the proceeding and to affect the ultimate 
licensing, and it is really necessary to get them on the same 
page to be effective.
    Now in terms of the specifics of the act, I would be glad 
to work with you and your staff on those in the future. Some of 
the things, for example one of the things that struck 
Commission staff in looking at these was for the provisions 
regarding amendments. And the provisions there seemed to 
require for all amendments that there be a schedule established 
and perhaps a Memorandum of Understanding undergone, and it has 
been Commission staff's experience that 87 percent of 
amendments are approved within 6 months because they are 
usually minor matters.
    So while the provisions regarding the process might very 
well be very useful for larger what we call capacity amendments 
where someone is greatly increasing the capacity of a project, 
they would not necessarily be helpful in terms of the smaller 
work. So it is those sorts of things where everything is not 
one-size-fits-all, and we would want to be sure that whatever 
processes are created will be applied to those proceedings in 
which it makes them quicker, but would not be applied to those 
proceedings in which it would slow them down.
    Mr. Peters. Let me just ask one other specific question. Is 
there a way we could speed up the relicensing of existing 
facilities that may be wearing out? Is there some reason why 
that takes as long as it does?
    Mr. Katz. I honestly don't have a magic answer. I don't 
know that anyone else does or it would have been done long 
since. I know Congress--all of the stakeholders have been 
concerned about this for years. I think part of the problem is 
just the statutory structure where you need to do a thorough 
environmental review and then there are a number of authorities 
that have the right to impose conditions.
    It is very hard to do a set process. For example, under the 
Clean Water Act the Commission can't issue a license unless it 
has gotten either a waiver of certification or a certification 
from the States. And there are some instances where the 
Commission has been completely done its work on a project and 
has been sitting for more than a decade waiting for a State to 
act under the Clean Water Act and there is just flatly nothing 
the Commission can do about that.
    Mr. Peters. Great. I understand.
    Mr. Katz. Congress could change that if it wanted.
    Mr. Peters. I was going to say fortunately we are talking 
about statutory authority right here in this room, so you are 
probably talking to the right people. And I appreciate the 
constraints that the Commission has and your answers have been 
very helpful to me.
    Mr. Chairman, thanks for the hearing, and I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from Mississippi, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to you both 
being here and look forward to additional info on this very 
important issue. Mr. Katz, if I can ask you a couple of 
questions. You know the ownership and regulatory environment 
for hydro is very complex. Where do you see the greatest 
opportunities for streamlining the process to improve that 
transparency and efficiency?
    Mr. Katz. Again, I think that the greatest opportunities 
are making all decision making as concurrent as possible. Any 
time you get into sequential decision making it slows things 
down, often radically slow.
    Mr. Harper. OK, can you identify a place or places where 
you see the greatest amount of duplicative or unnecessary work, 
something that comes to mind?
    Mr. Katz. I can't say as sort of an across the board 
matter, but some States and some agencies in some cases decide 
that they need to do their own environmental review in addition 
to what the Commission does and that can take time. Also some 
of those entities do not time their decision making so that it 
syncs up with when the Commission is ready to act and those 
matters can radically delay----
    Mr. Harper. So would it help, Mr. Katz, to have FERC act as 
a lead agency to maybe issue a schedule and enforce deadlines?
    Mr. Katz. The devil is in the details. I mean, the 
Commission always is the lead agency and the Commission's 
regulations and in giving cases specific orders do set 
schedules. It is the enforcing the schedules that is hard. And 
that is kind of a two-edged sword, because on the one hand the 
Commission might like to be able to say you will hand in your 
State authorization by date X; at the same time States have 
sovereignty and to the extent that they are told they need to 
do something by a certain time, if they feel not ready they 
could always deny certification or load up on very burdensome 
conditions because they felt they didn't have the time 
necessary to do their job. So it is a real difficult chicken-
and-egg problem.
    Mr. Harper. And do you wind up with a lot of conflict in 
those situations where that happens on a regular occasion?
    Mr. Katz. I don't know if it is open conflict. It is more 
like the Cold War. I know again, I hate to keep referring to 
Mr. Leahey, but I think he will tell you that there are 
licensees that are very frustrated because they have done all 
that they can and in many instances are satisfied that the 
Commission has done all it can, but projects are not ready to 
go forward because other entities are not ready to act.
    Mr. Harper. And those other entities would be State 
entities?
    Mr. Katz. Some State entities, sometimes it is other 
Federal agencies.
    Mr. Harper. OK, which if we were trying to decide between 
the two would it be primarily more responsibility on State 
agencies or other Federal agencies that you see just in 
generalities?
    Mr. Katz. That is hard to say. I would suspect that Clean 
Water Act certifications are the greatest incidents of delay, 
but Endangered Species Act consultation also delays a number of 
projects.
    Mr. Harper. You know, almost everybody would agree that you 
know, hydropower, it is clean, renewable, abundant, and I 
believe affordable. What many people don't realize is that it 
does also improve the reliability of the electric grid. How 
does hydro help integrate intermittent renewables like wind and 
solar?
    Mr. Katz. Hydro can play a very significant role in doing 
that because hydro has what is called black start capacity, so 
you can have the hydro sitting there and it turns on instantly 
as soon as you let the water flow and turn the turbines. So 
when you are pairing it with something like wind, which is 
intermittent, it can play a major role in balancing the grid.
    Mr. Harper. Well, how about when there is an outage? Does 
hydro do the same to bring the grid back on line?
    Mr. Katz. Yes, it can serve in that capacity as well.
    Mr. Harper. All right. And how does hydro compare to other 
energy sources in terms of its environmental impact?
    Mr. Katz. That is a subjective matter. But as a general 
matter it is carbon neutral so it does not have air quality 
impacts. There are those who are concerned about the impacts on 
aquatic resources, but with proper management and proper 
conditioning hydro can be a very benign resource.
    Mr. Harper. So what would you say, Mr. Katz, what the 
greatest impediment to attracting capital to invest in new 
hydropower projects what would that be?
    Mr. Katz. Again that is not my area of expertise so much as 
it is the industry, but I would say uncertainty in the time the 
licensing process takes.
    Mr. Harper. OK, great. With that I will yield back, Mr. 
Chairman.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member. I 
want to thank our witnesses for being here.
    Mr. Turpin, it is clear from today's hearing that FERC has 
a whole lot on your plate and currently, pipelines, LNG 
permitting, hydropower, electric reliability all fall under 
FERC. In addition, there are many in the House who would like 
to expand FERC's permitting authorities to include oil 
pipelines. In your position as the director of the Office of 
Energy Projects most of these fall within your office.
    Mr. Turpin, if FERC receives a request for a natural gas 
pipeline permit within the United States, could you please 
describe the review process to receive a certificate of public 
necessity?
    Mr. Turpin. Sure. For a line of any length, if it is 
especially complex or a large scope, we would encourage the 
applicant to follow the pre-filing process. It is voluntary for 
pipelines. During that process, the Commission staff would try 
to engage the other agencies and stakeholders.
    Mr. Green. What other agencies is it on the Federal level?
    Mr. Turpin. Any agencies issuing a Federal permit whether 
that is a Federal agency or a State agency, I think, on 
federally delegated authority. We would also reach out to State 
and local agencies to bring them into the process as well. The 
idea is to get as many folks under the tent at the beginning of 
the process when the applicant is still trying to design the 
route rather than wait, and by that have the greatest influence 
on easy changes to accommodate all the issues rather than wait 
until the applicant spends a significant amount of time and 
money in coming up with a project that then is harder to 
change.
    So that process at a minimum can take 6 months, but it 
really is set by the applicant. As long as they want to stay in 
pre-filing they can, and during that pre-filing process staff 
would engage in its environmental scoping processes and would 
be seeking comment from the public and any interested 
stakeholder about what environmental issues need to be 
addressed in looking at the project.
    Those issues are to be addressed by the applicant in 13 
resource reports that must be filed with the Commission. Each 
of the reports covers a different resource area such as water 
quality or----
    Mr. Green. But FERC is responsible for doing the National 
Environmental Policy Act enforcement; is that correct, NEPA?
    Mr. Turpin. We are the lead agency for constructing the 
NEPA document. Yes, sir.
    Mr. Green. OK. What about when it crosses a U.S. border--
Mexico, Canada?
    Mr. Turpin. It is the same. Pre-filing likely would not be 
used in those cases because they are usually smaller scope 
projects.
    Mr. Green. Does FERC coordinate with the Department of 
State or Department of Defense when issuing a cross-border 
natural gas pipeline?
    Mr. Turpin. Currently, yes. The Commission reaches out to 
both of those agencies to get their concurrence that there is 
not a national security interest.
    Mr. Green. If FERC were granted the authority to permit oil 
pipelines would the Commission follow similar procedures?
    Mr. Turpin. I think that would be determined by the 
Commission. They will have to set the policies that my office 
would follow. We do have the existing program that we do for 
natural gas, so, you know, a good guess is that it would 
parallel that but again that would be set by the Commission.
    Mr. Green. Does the Office of Energy Projects possess the 
resources to handle that additional responsibility and 
activity, and do you anticipate additional needs if you 
permitted oil pipelines?
    Mr. Turpin. We do have the expertise. We do have the staff. 
There haven't been a tremendous amount of those border 
crossings. As I said in my testimony, I think over the last 10 
years, we have done 15. I had staff look at potentially how 
many oil crossings there might be. I think we found there is 
somewhere in the neighborhood of 20 to 30 existing ones. So I 
don't think it is a tremendous workload. I think we would have 
to have some additional expertise for the unique aspects that 
are different from natural gas lines.
    Mr. Green. Oftentimes that oil pipeline is in the same 
easement that a natural gas pipeline or some other product.
    Mr. Katz, connected action has been legally defined as an 
action that is interdependent parts of a larger action. Mr. 
Katz, under NEPA regulations FERC is required to review 
connected actions of a pipeline project; is that correct?
    Mr. Katz. That is correct.
    Mr. Green. If a cross-border pipeline project cannot 
proceed without a certificate of crossing as described in the 
legislation would FERC consider this a connected action?
    Mr. Katz. Connected to what, sir?
    Mr. Green. If a cross-border pipeline project cannot 
proceed without a certificate of crossing as described in this 
legislation we are considering, would FERC consider this a 
connected action?
    Mr. Katz. It could be a connected action to the remainder 
of the oil pipeline, yes.
    Mr. Green. Is FERC required to consider the cumulative 
impacts of a pipeline project?
    Mr. Katz. Yes, it is, of all projects it reviews.
    Mr. Green. OK. I am out of time, and thank you, Mr. 
Chairman. But obviously coming from Texas we are trying to sell 
as much natural gas as we can to northern Mexico and I know 
there are processes now that are in place, but again crossing 
the international borders presents other issues and that is 
what this legislation is about. Thank you, Mr. Chairman.
    Mr. Olson. The gentleman's time has expired. The Chair now 
calls upon the gentleman from West Virginia, Mr. McKinley, for 
5 minutes.
    Mr. McKinley. Thank you very much, Mr. Chairman, for 
scheduling this meeting.
    Mr. Katz, if I could go quickly with you because I want to 
spend more time with Mr. Turpin, but do you think, in your 
opinion, with the H.R. 446, 447, and 2122 that we are going to 
be talking about today for the construction of hydroelectric 
projects in Virginia and West Virginia, do you think the 
Commission has any problem with getting additional flexibility 
so that it doesn't take an act of Congress?
    Mr. Katz. No. One of the bills before you indeed would give 
the Commission the authority to extend the commencement of 
construction deadline and I think I indicated in my testimony 
that Commission staff supports that concept.
    Mr. McKinley. Thank you.
    Mr. Turpin, I want to take a larger view, maybe perhaps 
take it from 30,000 feet on this issue of permitting because I 
know from the testimony and what we have read that FERC has a 
responsibility to coordinate these projects in the timeline, 
but the agencies often break from the mold and so it drags out.
    I am trying to understand if we are moving in the right 
direction with this, because if we look back over it now, over 
time we have developed now there are 15 different permits have 
to be achieved to build a pipeline from ten different agencies 
and the timeline for each of those agencies can be as long as 2 
years or longer if they should so choose to do that.
    But we are talking just of those we have the FERC 
transporter, the FERC certificate of public convenience, the 
Pipeline and Hazardous Materials Safety Administration permit, 
NEPA, an EPA permit, the Army Corps dredge permit, the Section 
10 permit, the right of way permit for the Army Corps, the 
Federal levy right of way permit, the Fish and Wildlife 
incidental take permit, the Fish and Wildlife right of way, the 
Bureau of Land Management right of way, the Bureau of Indian 
Affairs right of way, the U.S. Forest Service public use 
permit, the U.S. Department of Agriculture easement, the Bureau 
of Land Reclamation, all of these I guess what I am wondering, 
are we really better off for having these permits? Because we 
look back at the track record when they built Hoover Dam, the 
permitting was less than 2 years to accomplish and I wonder 
whether or not did we cause havoc to the people in Colorado and 
along the Colorado River by building the Hoover Dam?
    The Alaska Pipeline now have been 9 years trying to get a 
permit, because in addition to these 15 permits we have seen 
politics come into play with this. The Trans-Alaska Pipeline as 
controversial as that might be it took less than 1 year to get 
the permit and now we have the advantages that occurred.
    So I am saying with all this progress or process of 
additional paperwork, are we better off for it? Can you tell me 
from FERC that this is--we have improved the system by delaying 
projects for 10, 15 years to do this? Think what I just said 
about the Hoover Dam. The permit was less than 2 years, but for 
10 years we are trying to build a low-head dam in West Virginia 
and we can't get the permit, after 10 years. Who is right? Were 
the people back in the '40s and '50s and '60s and '70s, were 
they smarter than we are? That is to you, Mr. Turpin.
    Mr. Turpin. Thanks. I think a lot of that depends on the 
perspective. I mean all these agencies, all those permits, many 
of which you read are actually crossing of Federal lands and 
that is the easement that the pipeline company must get, all 
have come about through congressional action. I think it is 
whatever, you know, Congress directs these agencies on what 
they need to execute and we execute on what we are told to do.
    Mr. McKinley. So in your opinion, Mr. Turpin, are we moving 
in the right--I am sorry to keep--are we moving in the right 
direction by adding delays, because you know from 
construction--I spent 50 years in the private sector--delays 
cost money. The time value of money when you start something 
that maybe takes $10 million, even they are saying the 
licensing process for a new hydropower development project can 
last over a decade and would cost over tens of millions of 
dollars.
    Are we better off for doing it that way or should we rely 
on the courts to see that they are upheld and let the 
construction begin? Because if we are truly after construction 
and we are trying to get jobs for people, wouldn't it be better 
to put them to work or to use paperwork? Who is benefiting from 
this, the unelected bureaucrats in Washington?
    Mr. Turpin. It sort of doesn't feel like a benefit to us. I 
think the answer is that it depends on what Congress determines 
is in the public interest. I mean the bureaucrats have to 
execute the laws that are passed.
    Mr. McKinley. Thank you very much. I yield back my time.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the star center fielder of the Congressional Women's 
Softball Team, Ms. Castor, for 5 minutes.
    Ms. Castor. That is right, the third week in June, the 
Congressional Women's Softball game against the evil women of 
the Press Corps. Mark it down on your calendars.
    Thank you, Mr. Chairman, for calling the hearing today. One 
of the bills before us today aims to expedite FERC review of 
natural gas pipelines. Roughly 90 percent of FERC natural gas 
pipeline projects receive their certificate within 1 year, but 
nevertheless I do understand that it is important to promote 
efficiency in all Government review processes.
    But this is why just a year and a half ago the Congress 
passed an important part of the FAST Act, and I had to go back 
and remind myself of all this and I encourage my colleagues to 
do the same. The FAST Act set up a new entity, the Federal 
Permitting Improvement Steering Council, FPISC, to bring 
Federal agencies together including many that have been 
mentioned today--the Army Corps of Engineers, the Bureau of 
Land Management, Fish and Wildlife--to improve timeliness, 
predictability, and transparency of Federal environmental 
review and authorization projects for major infrastructure 
projects which includes interstate natural gas pipelines.
    The Council spent 2016 getting off the ground and is now 
overseeing permitting for 32 major infrastructure projects 
including seven interstate natural gas pipeline projects. These 
projects will benefit from enhanced coordination including 
establishment of a lead agency for the project, the 
establishment of recommended performance schedules and project 
review timelines and greater transparency at all levels. In 
fact, the Business Roundtable just wrote a letter recently to 
the White House to say can we move forward with getting FPISC 
off and moving; I think it is still waiting for another 
appointment.
    So it is a bit confounding why we are here discussing an 
entirely new scheme for review of natural gas pipelines when we 
recently sent up an entirely new entity to do just that. And at 
a minimum we should have FPISC here to testify about their 
progress and I would respectfully request that we do that in a 
future hearing.
    So Mr. Turpin, in your testimony you state that FERC has 
undertaken significant efforts to implement its 
responsibilities under the FAST Act. Can you elaborate a bit on 
your efforts?
    Mr. Turpin. Sure. When the FAST Act, I think within 6 
months of its passage all the subject agencies had to post 
existing projects. For FERC I think we had the most significant 
number of projects that went up on the dashboard. And most of 
the efforts were at that point those projects had been through 
the FERC pre-filing process, had already had a lot of the 
coordination and FERC was the lead agency for those.
    So a lot of that effort was at going back to document the 
things we had already done and put up coordinated project plans 
not as sort of a prospective plan but as a historical, you 
know, acknowledgment of the things that the agency has already 
been through. We found that it did take a lot of time to 
coordinate the various agencies' data, some agencies would be 
unwilling to commit to schedules, and it does take quite a bit 
to kind of ride herd on the data that has to get posted. So 
that is the bulk of the work that we did in trying to set up.
    Ms. Castor. So do you think it will help now when you have 
this interagency coordination when everyone is sitting at the 
table and maybe some agencies can look at others and say why 
aren't you adhering to the schedule and timeline?
    Mr. Turpin. And that is essentially what I think we have 
tried to do through the pre-filing process as well. I mean, as 
the lead agency we try to bring those folks to the table and 
try to get them the information they need so that they can 
advise us of the schedule they need.
    Ms. Castor. And you also state that some of the provisions 
in the discussion draft would duplicate efforts. How so?
    Mr. Turpin. That is predominantly the tracking of 
everyone's project schedules. I mean that is what happens on 
the FPISC dashboard and then it would be a duplicate effort at 
the Commission.
    Ms. Castor. Well, it is clear we need to hear more from 
FPISC to understand what it has achieved in the year-plus that 
it has been in operation already and I fear that we are simply 
setting up a duplicative process with this proposal, so I have 
serious concerns with the discussion draft today. I think we 
need to have FPISC here. And remember, this is only a year and 
a half old and it was the Congress' intention to promote 
greater efficiency by bringing that interagency group together. 
I yield back my time.
    Mr. Olson. The gentlelady yields back. The Chair calls upon 
the gentleman from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman. I do 
appreciate it and I appreciate the witnesses being here.
    Mr. Katz, I was pleased to read in your testimony and then 
to hear in one of the earlier questions that you all are fine 
with H.R. 446 related to the Gathright Dam and H.R. 447 related 
to the Flannagan Dam and I appreciate that very much. Thank 
you. I am also interested in, you know, not only electric 
generation but making sure that we have jobs in my district. 
One of the great concerns in the coalfields has been is that 
production has been down and folks have said you all need to 
reinvent yourselves. We think coal has a long future, but at 
the same time we want to make sure that we are looking for new 
ways.
    A couple of my friends in the Virginia General Assembly got 
a bill passed this last year. I had mentioned in a previous 
hearing that there were some folks interested in doing some 
things related to pump storage projects and what they are 
trying to encourage with the Virginia language is to see if 
they can't entice somebody into putting a pump storage facility 
inside an exhausted or abandoned coal mine making it a closed 
loop system.
    And I appreciate your written testimony on those issues as 
well. One of the questions that you raised and I would like for 
you just to do some explaining for me, is you felt like there 
was because of the add-ons or, and I am probably using the 
wrong language, but the additional energy items like solar or 
wind to help pump the water up that there was a problem in the 
draft language that we have floating around, at least the way I 
interpreted it, with municipals, maybe adding on nonmunicipals. 
Could you explain that to me?
    Mr. Katz. Sure. It is kind of a historical artifact, but 
years ago back in the '80s there were instances before the 
Commission--well, I should----
    Mr. Griffith. Way back in the '80s.
    Mr. Katz. Yes, when I was a youngster. I guess I should 
drop back five yards. I mean, in the Federal Power Act, 
Congress provided that a municipality would get a preference 
over a private entity in obtaining a preliminary permit or a 
license. So if they--all things being equal, if a city applies 
and a private company applies, the city wins.
    And at some point in the '80s, the Commission discovered 
that municipalities were applying and saying I am a muni, give 
me preference, but then as soon as they got the license or the 
permit or even during the process they would turn around and 
sell it to another private entity, not the one that was trying 
to compete with them but somebody else. And so the Commission 
decided that was not fair competition and it was not 
appropriate to put private entities at a disadvantage.
    So the concern that I expressed with regard to that portion 
of the bill was it would appear to allow a municipality to 
outcompete a private entity in the first instance, and then do 
what the Commission has hitherto precluded agencies from doing, 
turn around and sell it to a different private entity so that 
the private entity that was trying to develop the project, and 
indeed it might have been the entity that was out there in the 
field first, would be placed at a disadvantage. That is 
something for Congress to consider.
    Mr. Griffith. OK, and I appreciate that. And so it is not 
really a concern over this closed loop pump storage, but a 
concern that that and then perhaps the solar, the wind might be 
transferred as you just described; is that correct?
    Mr. Katz. Yes. It is not specific to closed loop, it is 
just that is, I believe, the only one of the bills in which 
that language appears so that is why I raised it in the 
context. But no, it is not something that is in the nature of 
closed loop pump storage projects.
    Mr. Griffith. And otherwise in regard to the draft language 
on closed loop hydro pump storage you all feel fairly 
comfortable that we are headed in the right direction on that?
    Mr. Katz. I think it has a lot to commend it. Again we 
would be happy to work with committee staff just to make sure 
that there are no duplicative areas or things put into the 
statute that make things take longer or are repetitive other 
agency actions.
    Mr. Griffith. Because as some of the other witnesses on 
both sides of the aisle have pointed out, you know, when you 
are using hydro that is a very clean source of energy. In the 
case of using a captive water source inside of an abandoned 
mine, you really don't have a whole lot of problems as long as 
initially it is structurally sound of course. But we believe 
that we have a number of those sites in southwest Virginia, 
maybe some in my friend Mr. McKinley's district over in West 
Virginia as well.
    But we believe that this is one way that we can continue 
our region's longstanding history working in energy and at the 
same times create jobs in a field and an area where jobs have 
disappeared as a result of some downturns in the economy and 
some regulations that we are going to try to work on.
    Mr. Katz. Yes, if I may, I will say----
    Mr. Griffith. Yes, please.
    Mr. Katz [continuing]. The Commission approved a project of 
that type in California, the Eagle Crest Pump Storage Project, 
of which is using an abandoned mine and is currently under 
development, so those kinds of things can indeed make sense.
    Mr. Griffith. All right, I appreciate it very much and I 
see my time is gone. I yield back.
    Mr. Olson. The gentleman yields back. The Chair calls upon 
the gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Mr. Turpin, welcome. I 
have a few questions concerning the interagency coordination 
discussion draft. Do you believe that aerial or remote surveys 
have limitations?
    Mr. Turpin. At this time, I do. I think, you know, the 
Commission and its staff has had a long history of accepting 
remote data in terms of looking at the initial environmental 
impacts, but then they need to be truthed up, you know, after 
an authorization before construction can start. There just 
simply are limitations. You can't always count on that to get 
the species counts. There are certain kinds of wetlands that 
aren't able to be delineated aerially.
    Mr. Tonko. Thank you. And can aerial survey data be 
unreliable regarding the presence of endangered species, 
historic properties such as archeological sites and 
characterization of wetlands?
    Mr. Turpin. Yes.
    Mr. Tonko. OK. Does the draft before us include any 
standards or methodology requirements that must be met in order 
for an agency to be required to consider data from remote 
surveys?
    Mr. Turpin. No. I did not see anything about minimum 
standards.
    Mr. Tonko. OK, thank you. And so there would be no quality 
control requirements that might consider the degree of 
accuracy, of scale, of elevation, of vegetation strata and 
density, soil profiles, or many other factors that could vary 
widely depending on the geographic region and methodology 
deployed in that survey?
    Mr. Turpin. Again, I saw nothing of that in the bill and I 
took that to mean that that would be left up to the individual 
agencies.
    Mr. Tonko. Does this discussion draft require applicants to 
attempt to conduct ground surveying before using remote 
surveying?
    Mr. Turpin. Not that I read, sir.
    Mr. Tonko. And in which case applicants would not be 
required to make a good faith attempt to gain access to perhaps 
private property owners' land and in so doing help to make an 
important stakeholder aware that this project is being 
developed potentially through their property. There may be 
streamlining we can consider in the application process, but I 
really do believe that any attempts to skirt the rights of 
landowners especially when the outcome is less than perfect 
data would be a step in the wrong direction. Is that a concern 
that I should have?
    Mr. Turpin. I think the Commission's stance in the past has 
been that the best course of action is to get the best 
available data for the NEPA analysis. And the Commission has 
encouraged the pipeline companies to go out and actually seek, 
you know, pipeline right of way access to develop that data. 
But if it can't be achieved, then Commission staff has relied 
on remote and aerial data.
    Mr. Tonko. I would also recommend that the committee 
receive more feedback on this provision from other Federal and 
State agencies to understand how inadequate data might affect 
their review process and the associated regulatory 
requirements.
    Mr. Turpin, in your testimony you state the Commission's 
current review processes are thorough, efficient, and have 
resulted in the timely approval of the facilities necessary for 
natural gas pipelines. Generally speaking, how long does it 
typically take for a pipeline permitting process or permitting 
application to go through FERC's process?
    Mr. Turpin. It can vary pretty widely, so there is not a 
really great typical time. As I mentioned earlier, for the full 
spectrum of projects filed at the Commission for pipelines 88 
percent of them are issued within 1 year and that does go from 
very small projects. Usually, once you begin to increase the 
length of the line and the complexity of the project, the time 
does tend to stretch out because there are simply more 
stakeholders engaged, more issues to consider, and more 
agencies to have at the table.
    Mr. Tonko. But in general within a year?
    Mr. Turpin. Eighty-eight percent within a year. Yes, sir.
    Mr. Tonko. Which seems to be, you know, given the 
importance of the review seems to be a fairly expedited process 
done thoroughly. So with that Mr. Chair, I will yield back.
    Mr. Olson. The gentleman yields back. The Chair calls upon 
the gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And gentlemen, thank 
you for joining our panel this morning.
    Mr. Katz, this committee received testimony some time back 
from a developer that had difficulty with a project on an 
existing nonpowered dam under the Army Corps of Engineers' 
jurisdiction. Apparently, they had to perform two separate NEPA 
analyses, one for the FERC license and a separate analysis 
triggered by the Clean Water Act for the Army Corps. I 
understand that you have an MOU with the Army Corps, but what 
could FERC do to prevent this type of duplicative application 
of NEPA in the future?
    Mr. Katz. Well, sorry to give this answer, but ultimately 
there is not anything we can do, we don't control the Corps. 
But as you noted we have----
    Mr. Johnson. Your MOU doesn't address that, that kind of 
collaboration?
    Mr. Katz. Yes, the MOU does. The MOU seeks to have the 
Corps and the Commission act concurrently to the extent 
possible and that is as far as we have gone. But as a legal 
matter we have no authority over the Corps, so if the Corps 
decides it needs to do more environmental work we can't prevent 
that.
    We also have a number of instances in which we have issued 
licenses for projects at Corps dams and the Corps decides it 
needs to take a certain amount of time whether it is to review 
the physical characteristics of the dam or to issue permits 
such as the ones that you refer to and the Commission does not 
have any authority to do anything about that.
    Mr. Johnson. Do you have a personal opinion as to the waste 
and the duplication of having both the Army Corps and FERC 
requiring NEPA studies on the same project?
    Mr. Katz. My opinion is that agencies do need the studies 
they need in order to carry out their statutory mandates, but I 
don't think there should be duplicative studies and ideally 
they would be done concurrently so that there is as little use 
of time as possible.
    Mr. Johnson. Now you would think that if you did one you 
could use the same application for both agencies and do it one 
time. I mean, I am a plowboy so common sense kind of reigns----
    Mr. Katz. Yes. That would be hoped. And often the Corps is 
a cooperating agency with the FERC when FERC does its NEPA 
document and then the Commission can do its best to make sure 
that everything is in the NEPA document that the Corps might 
need.
    Mr. Johnson. All right. I understand that one important 
project parameter left unresolved until very late in the 
permitting process is the water quality standard, which as you 
know determines the amount of water that will ultimately be 
available to pass through the turbines in a dam, a power dam. 
Currently, the Corps may prescribe different water quality 
standards from the FERC and the State standards, beginning in 
some cases in the 6th or 7th year of the Federal permitting 
process. This can cause significant problems from both a 
commercial and a planning perspective.
    Would you care to comment on this issue? Is that part and 
parcel of the same kind of deal we are dealing with, with the 
NEPA analyses?
    Mr. Katz. It may be to some extent. I think that those 
issues only arise where a project is located at a Corps dam. 
The Corps can't prescribe water quality standards if it is at a 
non-Corps dam. But yes, if a project is at a Corps dam, the 
Corps essentially has the ability to require the licensee to do 
whatever it is that the Corps sees fit to do.
    Mr. Johnson. Having the ability is one thing, but this is 
another example of duplication and in my opinion it appears to 
be Government waste and wasting the time of the businesses and 
those that are trying to get these projects done; would you 
agree?
    Mr. Katz. It can be. Our experience is that different Corps 
districts behave different ways. Some Corps districts are very 
welcoming to hydro and try and do everything they can to 
promote hydro being built at Corps dam. Other districts don't 
seem to favor hydro at their dams.
    Mr. Johnson. That is kind of--I appreciate that comment. 
Different Corps districts behave in different ways. Wouldn't it 
be great if they all were kind of talking to one another and 
doing things the same way?
    Mr. Katz. Yes, I think it would. I mean, one of the things 
FERC is lucky about is that we are a small agency, so if the 
chairman wants to know what I am up to she can walk down the 
hall and look me in the eye as opposed to I am located out in, 
you know, some far region of the country. And I think it is 
harder for folks in Corps headquarters to control all their 
aspects.
    Mr. Johnson. OK. Lastly, for how many licenses issued or 
pending before the Commission has the FERC and the Army Corps 
MOU been employed to unify the NEPA review process, and how 
many of those instances has the Corps used a FERC generated 
NEPA review when approving a project? So has there been any 
crossover that you can recall where one agency used a NEPA from 
the other?
    Mr. Katz. There certainly have been in the past prior to 
the MOU. The MOU is fairly recent so I am not certain whether 
it has come into play in any cases where we have actually 
issued licenses.
    Mr. Johnson. Can you provide us with the language around 
the NEPA analyses that is in the MOU? I would like to see that. 
I would like to see how much discussion actually went into it. 
Mr. Chairman, I yield back.
    Mr. Katz. Yes, I would be happy to do that and we also can 
let you know if there are any instances in which the MOU has 
been applied.
    Mr. Johnson. Thank you very much.
    Mr. Walberg [presiding]. Thank you. The gentleman's time 
has expired. I now recognize the gentleman from Oregon, Mr. 
Schrader.
    Mr. Schrader. Thank you very much, Mr. Chairman. I 
appreciate that.
    I guess, Mr. Turpin, Mr. Katz and others have talked about 
the concurrent review process. Do you have any, see any 
problems particularly with accelerating a more concurrent 
review process by all the different agencies?
    Mr. Turpin. No. Concurrent reviews are what is desired. I 
think the rub becomes if the information needed by those other 
agencies can be developed at the same time as we are doing our 
review.
    Mr. Schrader. That would hopefully be established whatever 
process would be set up to begin with. The States would be an 
outlier though as I understand. They are not subject to any 
Federal regulatory authority in terms of when they get their 
act together and decide to approve something?
    Mr. Turpin. The States that are acting under--it is their 
own authority would be preempted by the Federal permits, but 
the State agencies acting on federally delegated authority for 
Federal permits carry the same weight as the Feds.
    Mr. Schrader. So that is something we will have to figure 
out going forward it looks like.
    Mr. Katz, do you agree that the bill dealing with cross-
border approvals, the new cross-border approval process that is 
being suggested combines the permit process to just the segment 
on the border and doesn't allow any discussion of the entire 
project?
    Mr. Katz. I am not certain that it does that. The 
Commission would have to do whatever NEPA review is 
appropriate, and I don't think that the bill precludes the 
Commission from looking at other impacts.
    Mr. Schrader. OK, OK. That would be my read of the bill 
actually, also. While the bill says there is no cross-border 
review for modifications of an existing cross-border facility, 
with regard to cross-border authority are there other agencies 
or regulatory authorities and permitting processes that someone 
trying to modify a facility would need to abide by?
    Mr. Katz. I am not aware of any. I defer to Mr. Turpin. 
DOE, if there is a change in the commodity level DOE might have 
to approve it, but again I defer to Mr. Turpin for a further 
discussion.
    Mr. Turpin. It is going to depend on what equipment is 
needed for that modification. If it is a compressor station for 
the case of a natural gas pipeline it will have to comply with 
the Clean Air Act. I don't know enough about pump stations for 
liquid lines because we don't currently deal with those.
    Mr. Schrader. What about an expansion of the footprint of 
the facility?
    Mr. Turpin. That again it would depend on what exactly the 
equipment is being installed as to if there would be Federal 
oversight or not.
    Mr. Schrader. OK, but not any additional land being taken 
into the facility would not be an issue then. It is just the 
type of equipment that would be there?
    Mr. Turpin. I mean current, it is usually the installation 
of additional features and increasing the footprint that drive 
most of the environmental issues.
    Mr. Schrader. OK. Then there is a 30-day approval, you 
know, deadline for export-import of natural gas cross-border. 
Do you see that hampering public input or the ability to get 
the permitting process done, the approval process?
    Mr. Turpin. As I read the bill the 30 days was applicable 
to the DOE commodity determination and so I don't think that 
would affect the FERC process.
    Mr. Schrader. All right, very good.
    Mr. Katz, in the legislation about promoting hydro 
development in existing nonpowered dams I am not that familiar 
with some of the current regulatory framework. It is being 
proposed to switch to that which is necessary to protect public 
safety or reasonable economic feasibility and prevent damage to 
fish and wildlife. How is that language different than what the 
current regulatory authority is?
    Mr. Katz. The language is different to the extent that it 
could be read to preclude the Commission's considering some 
other resources that it now considers like flood control, 
irrigation, recreation, historic preservation. The standard is 
also different. The standard as I read the bill was that 
measures had to be economic and essential for fish and wildlife 
and that is a higher bar than currently exists.
    Mr. Schrader. OK, very, very good. And with that I will 
yield back, Mr. Chairman. Thank you.
    Mr. Walberg. I thank the gentleman and I recognize the 
gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you. We have out in the audience, Mr. 
Chairman, Andy Black. Andy Black is a former personal staffer 
of mine and a former staffer of the committee and also former 
senior official over at FERC, and he just lost his dad and I 
think just got back from the funeral yesterday. So half of the 
committee and me personally we are with you in your time of 
sorrow. I never met your father, but I heard nothing but great 
things about him. So, and we look forward to your testimony on 
the next panel.
    Mr. Chairman, I just have a couple of questions. Under 
current law we handle permitting for oil pipelines domestically 
and gas pipelines differently. Is there any real reason to do 
that other than that is the way we have always done it?
    Mr. Katz. I am not sure if that was addressed to me, but 
no, not particularly. I mean, the same thing is true with 
electric power lines. Congress sets up whatever scheme of 
regulation it sees fit to do.
    Mr. Barton. So it is just kind of the way it happened, but 
if we are going to do a pipeline reform bill is there any 
reason we couldn't use the same regulatory authority and 
permitting process for oil and gas pipelines?
    Mr. Katz. No, Congress has the authority to do that if it 
wishes.
    Mr. Barton. Good. In the Energy Policy Act back in 2005, we 
tried to give your agency, the FERC, the authority to oversee 
the various other agencies it had to do all the various 
pipelines that Mr. McKinley was talking about earlier. That 
doesn't seem to have worked too well, the delays have gone up 
not down. What went wrong and what do we do to fix it? Do we 
need more incentives or do we need more penalties or do we just 
need better people at the FERC? What is going on? You don't 
think the latter is the case.
    Mr. Katz. I would never want to say that our 
Commissioners--the staff is less than perfect, but the 
Commissioners are perfect. I don't know that there is anything 
that Congress did wrong in the bill. I think that what has 
happened since then--and I will defer to Mr. Turpin if he wants 
to speak to it--is that there has been an increasing emphasis 
on public interest in the pipelines and opposition to 
pipelines, concerns about environmental effects, you know, the 
type of production methods that are used, so that back in the 
day pipeline regulation approval was a fairly sleepy part of 
the Commission's business.
    Now it is something that a lot of people are interested in 
and very vocal about, and I think that is more what is taking 
more time than anything that Congress is responsible for having 
done.
    Mr. Barton. Mr. Turpin?
    Mr. Turpin. I would agree. I would also say staff is pretty 
good too. But I think that is a large part of it is the 
increased public interest, I mean from a very wide audience in 
the U.S. And as with the current approach, fundamentally the 
Commission can engage these agencies. The Commission staff can 
do the work, but all these agencies have to comply with their 
own congressionally directed mandates and it is that sort of 
not that I think ends up, we all end up tripping over.
    Mr. Barton. Well, I am not the chairman of the committee, I 
am the vice chairman, but I think we are going to do a pipeline 
permitting reform bill and we would really like your agency's 
input. I think it is good to have more public input. I don't 
think that is a bad thing, I think that is a good thing.
    But having said that you still need, once you get that 
input you need to make a decision. You need to live within the 
guidelines. You need to live within the deadlines. If our 
deadlines are too strict maybe we need to expand them a little 
bit.
    But we are going to need a lot more energy infrastructure 
in the next 20 to 30 years and pipelines are going to be a big 
part of that. And so if we didn't quite get it right 10 or 15 
years ago in the Energy Policy Act of 2005, let's get it right 
this time in the Energy Infrastructure Review Act of 2017 or 
2018. With that Mr. Chairman, I yield back.
    Mr. Walberg. I thank the gentleman and I recognize the 
gentleman from Indiana, Mr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Mr. Katz, in my district and nearby there are multiple dams 
that currently don't produce hydropower but potentially could, 
as you are aware. In 2013, Congress directed FERC to 
investigate the feasibility of a 2-year licensing process and 
develop criteria for nonpowered dams and closed loop pump 
storage.
    I guess you had a pretty good experience at the Kentucky 
Lock and Dam project, and what elements of a 2-year pilot 
program should Congress make permanent based on FERC's 
experience with the 2-year pilot?
    Mr. Katz. I don't want to get ahead of the Commission staff 
because we are right now compiling a report that Congress 
directed us to do in the 2013 statute.
    Mr. Bucshon. OK, so we have to wait for the report.
    Mr. Katz. Yes. As I said earlier though, even in the 
absence of any kind of regulatory or statutory changes, some 25 
percent of the original licenses that the Commission worked on 
in the last 13 years or so have been permitted in 2 years or 
less, so it can happen.
    Mr. Bucshon. Understood. And for these two type of 
projects, would these type of projects raise the same 
environmental and wildlife issues as traditional hydro or----
    Mr. Katz. The same issues get considered, but they are 
generally considerably less in scope because the existing dam 
has already had a certain impact.
    Mr. Bucshon. So it might have an impact on the timeline 
then if it was easier because of that?
    Mr. Katz. Such projects tend to be easier, not as an 
absolute rule but they tend to be easier.
    Mr. Bucshon. Would the draft legislation relating to 
nonpowered dams and pump storage in any way alter the FERC's 
environmental analysis under NEPA?
    Mr. Katz. I believe I answered an earlier question.
    Mr. Bucshon. Probably did.
    Mr. Katz. It looks as though it would in that it only calls 
out fish and wildlife resources and doesn't call out flood 
control, irrigation----
    Mr. Bucshon. OK, that is what----
    Mr. Katz [continuing]. Water supply and other things, and 
also it seems to set a higher standard for the conditions that 
would be imposed, a higher bar.
    Mr. Bucshon. How about the Clean Water Act or the Clean Air 
Act, any differences there on these type of projects?
    Mr. Katz. Clean Air Act issues are almost never implicated 
in hydro projects. The Clean Water Act, the legislation does 
call----
    Mr. Bucshon. Does the draft legislation have any impact on 
that?
    Mr. Katz. I don't think it would, but it is conceivable. We 
would have to study that.
    Mr. Bucshon. OK. I yield back, Mr. Chairman.
    Mr. Walberg. I thank the gentleman and I recognize the 
gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for holding today's hearing. America's shale energy 
revolution has dramatically improved our energy security here 
at home. The U.S. is now one of the top producers of oil and 
gas in the world, yet there are still existing infrastructure 
challenges to deliver those resources to consumers. Modernizing 
our infrastructure to efficiently and safely bring energy 
resources to consumers helps to create jobs and brings lower 
energy prices for hardworking American families.
    So with that I would like to get into my questions. Some of 
these were partially asked by Mr. Rush, Mr. Green, and Ms. 
Castor. Mr. Turpin, I understand that the Commission does what 
it can to encourage the participation of other permitting 
agencies today to identify issues and work to resolve them. 
Unfortunately, at times the other Federal agencies have chosen 
to not take the responsibility seriously. They may simply 
choose to just not act on a permit. In your experience, why do 
some agencies choose to go that route to not work with you?
    Mr. Turpin. I think it is from a global perspective of 
agencies working with us it is fairly rare for somebody to 
refuse to participate in the FERC pre-filing process or in 
coordination with staff. Whether they choose to be, you know, a 
cooperating agency under NEPA is a different question. They 
have their own interests to protect in terms if they want to be 
an intervener in the FERC process later.
    I think in large part the rubs come down to them having 
different criteria for the data they need to do their permit as 
well as their own resource constraints. We are a sole purpose 
agency. We look at this infrastructure. Other agencies have 
multiple mandates and they have to balance their needs as best 
they can.
    Mr. Flores. When you look at the legislation that places 
the mandate on the agencies to carry out their obligation 
concurrently in accordance with the schedule established by the 
Commission, do you think that legislation goes far enough or 
should we try to go farther to compel coordination and timely 
coordination?
    Mr. Turpin. I think that is a difficult question. Trying to 
compel the timely coordination requires--well, the language 
always has in it the caveat of unless otherwise mandated in 
other laws or unless an agency can't meet its other 
obligations, and it has been in all the versions I have seen. 
And so that is sort of the Gordian knot, and having the 
Commission in charge of all of those mandates for these other 
agencies seems a bit inefficient from our perspective.
    Mr. Flores. Are you aware of strategies by pipeline 
opponents like the Sierra Club and others to block access 
through land for route surveys?
    Mr. Turpin. I have heard of landowners blocking access, you 
know, not granting survey access to pipeline companies, but not 
NGOs or any kind of other organization.
    Mr. Flores. OK. To the extent they do though I mean it is 
pretty obvious, but can you tell the committee what impact that 
has on you doing your job?
    Mr. Turpin. As I said earlier, the Commission staff prefers 
to have the best information, you know, from the ground data in 
the ground surveys in the application, but without it we can 
move to desktop data, we can move to remote data, and we can 
move forward with our analysis that does have to be truthed up 
later before construction. And so sometimes there are potential 
implications that certain protected features won't be 
discovered until after the application and then the applicant 
has to do an expensive re-route or some lengthy adjustment.
    Mr. Flores. OK. The permitting dashboard in the draft 
legislation would consolidate the information from your agency 
as well as the coordinating agencies into a simple, easy to use 
and easy to access Web site. You admit it would improve 
transparency, but you also say in your testimony that it would 
burden staff resources and time. How do we balance the need for 
transparency with scarce Government resources?
    Mr. Turpin. Good question. I am still trying to figure that 
one out in my role here. I think that is always the rub. We 
don't have a lot of excess staff sitting around with a lot of 
excess capacity. You know, we are all technical specialists and 
we try to use everybody to their full capacity. So adding on, 
sort of riding herd on these other agencies just does dilute 
that effort, so I mean we can do it.
    Mr. Flores. And with respect to this permitting dashboard, 
again coming, stand out of the weeds, if the FERC didn't 
collect this information who would or should or could? I mean, 
you are the lead agency for permitting pipelines; aren't you 
the logical owner for this project?
    Mr. Turpin. Yes, we are. And as the current process we have 
it is the applicant that is going out and filing for these 
permits and engaging those agencies that is responsible for 
collecting that data and reporting it into the record.
    Mr. Flores. OK. Mr. Chairman, I yield back.
    Mr. Walberg. I thank the gentleman. I now recognize the 
gentleman from North Dakota, Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman. Thanks to the 
witnesses. I want to hone in a little bit on some statements 
that were made earlier and see if we can't find some common 
ground, because I appreciate what Mr. McNerney said earlier 
about, you know, we will never solve this if one side imposes 
its will on the other. I agree.
    I think Ms. Castor makes a relevant point admonishing us to 
see how the FPISC process works. We do have some pretty 
successful pilots and I think they could be even more 
successful if the interagency collaboration was more, I guess 
cooperated by more agencies on Federal lands where we have seen 
some permitting activity actually create efficiencies by 
actually co-locating some agencies even in field offices.
    But what I am wondering about on the interagency issue here 
is can we find ways or even substantiate that interagency 
collaboration and cooperation can accomplish two goals. One, to 
streamline the permitting process so that those of us who want 
to see the process shortened can be satisfied as well as find 
synergies, not just efficiencies but synergies among the 
agencies where there is even greater environmental oversight 
and scrutiny in that short of timeframe so that there doesn't 
have to be a loser but rather two winning sides?
    Is that too much to hope for or can that be substantiated? 
And I would ask either or both of you for your experiences.
    Mr. Katz. No, I would say that what you say makes a lot of 
sense and indeed is a viable and very positive goal.
    Mr. Cramer. Do we have any experiences where that can be 
demonstrated or----
    Mr. Katz. The Commission participated a kind of ex-officio 
because it wasn't any of our projects in the interagency task 
force that you talked about, which I think primarily related to 
getting transmission lines on Federal lands permitted. And our 
impression watching it a little bit from afar was that the 
agencies did a very good job of working together and doing 
things concurrently and trying to solve everybody's problems at 
once.
    And in some projects that come before the Commission that 
happens and things go very well. Other times it doesn't. I 
guess the question of getting it to be consistent and to be the 
rule rather than exception is perhaps the difficult thing.
    Mr. Cramer. And perhaps that is more a matter of the will 
than it is policy. However, Mr. Turpin, I don't know if you 
have anything to add to that but is there a way to incent that 
within the agencies? In other words, I think the natural 
tendency is to slow-walk things if you are just the bureaucracy 
doing your things sequentially, right, and you have 90 days, 
generally it takes 90 days. If you hadn't noticed, Congress 
usually extends their deadlines so that we can take longer.
    So what I am wondering is, is there a way to properly 
incent that behavior that we seek in an actual streamlining 
process without violating the integrity of oversight and 
scrutiny?
    Mr. Turpin. I think it comes back to sort of setting the 
priorities for the agencies. I mean they are given multiple 
mandates. Again we are a single-focus agency so it is easy for 
us to stay on the track. Other folks who have very widely 
different missions to carry out have to do that balancing act 
and so having that priority set for them would go a long way.
    Mr. Cramer. I do wonder sometimes if we couldn't harmonize 
some of that again while maintaining the integrity, but that is 
beyond obviously your agency's responsibility and scope.
    Since I have time, with regard to the presidential permits 
in cross-border on the oil side, which is the difference maker, 
right, from natural gas on international pipelines, this 
national interest determination which is what the President 
ultimately has to make on a, where a presidential permit is 
determined, if I understood I think your answer to a previous 
question, you, while consulting the national security in 
Homeland Security and other agencies, State Department, you are 
in essence not neglecting the national interest especially on 
the security side in your process with gas pipelines; would 
that be accurate?
    And I don't know whether the determination or the standard 
for the permit is the same, but it seems that the 
considerations are the same. Is that fair?
    Mr. Turpin. Yes. I mean with a natural gas process, you 
know, under NGA Section 3 we do the environmental review, we 
look at the facility's installation, and under the executive 
orders for the presidential process we reach out to State and 
Defense to get their concurrence on impacts that areas that 
they oversee.
    Mr. Cramer. Thank you for your work and for your testimony. 
I yield back.
    Mr. Walberg. I thank the gentleman. I recognize myself now 
for 5 minutes of questioning. Mr. Katz and Mr. Turpin, thank 
you for being here. Mr. Katz, the discussion draft would 
designate hydropower as renewable energy under the Energy 
Policy Act of 2005. How has hydropower development been 
adversely affected by the fact that it is not always considered 
renewable?
    Mr. Katz. That is one, again, that I would more have to 
defer to the second panel who deal with it on a day-to-day 
basis. But certainly there are Government programs, tax 
credits, other things that have not been available to the hydro 
industry when it is not considered to be a renewable resource.
    Mr. Walberg. Seems to make sense, so I guess we will wait 
for that second panel. Let me ask you, as you know the small 
conduit hydropower plays an important role in our Nation's 
energy mix. It is a great option to add renewable generation to 
existing infrastructure, it is installed almost anywhere even 
in remote places. The Hydropower Regulatory Efficiency Act of 
2013 created a streamlined process for qualifying conduit 
facilities. What has been your experience since then?
    Mr. Katz. Our experience has been that that process has 
gone very smoothly. We have almost never had any comments when 
someone proposed to have a qualifying project, so it has gone 
very quickly. In terms of the new legislation which would cut 
the comment period back to 15 days, Commission staff supports 
that.
    Indeed, we are not certain why it might be limited to 
projects of two megawatts as opposed to the five megawatt 
projects that are already covered by the act, and indeed I will 
go further to say the Commission staff has previously testified 
to Congress that it very well would be appropriate to exempt 
all conduit projects from Commission regulation given that the 
conduits themselves are subject to whatever appropriate 
environmental regulation goes on when a conduit is built and 
that they very rarely, if ever, have additional environmental 
impact.
    Mr. Walberg. So you would be supportive of Congress 
shortening the time period at the very least?
    Mr. Katz. We see no downside to that.
    Mr. Walberg. OK, OK. Let me ask this question and both 
could respond. How does the current FERC process hinder 
hydropower projects upgrades such as those that would increase 
deficiency capacity and output of existing plans?
    Mr. Katz. I think it can vary from project to project. 
Again if you have a fairly simple project that stakeholders are 
comfortable with and doesn't have significant environmental 
impacts it can go forward very quickly. If it is a major 
project that brings into play the Endangered Species Act, the 
Clean Water Act and other regulations that can significantly 
delay consideration of that amendment.
    Mr. Walberg. OK, thank you. I yield back my time and now 
recognize the gentleman from Oklahoma, Mr. Mullin.
    Mr. Mullin. Thank you, Mr. Chairman. And first of all, I 
want to thank my colleague across the aisle, Gene Green, for 
working with me on this issue and working together with us on 
so many different issues. We have worked together in the past 
and I look forward to doing it again.
    Mr. Turpin, as you know the process for reviewing cross-
border infrastructure is established through a series of 
executive orders, and I think you know where I am going with my 
questioning here. In fact, Congress has never weighed in and 
there are no current laws on the books. The draft legislation 
before us today would be the first to establish a uniform and 
transparent process in authorizing cross-border energy 
infrastructure. Would the draft legislation change the 
Commission's existing process for reviewing cross-border gas 
pipelines?
    Mr. Turpin. I do not believe it would.
    Mr. Mullin. Would you have any concerns with that? When I 
say you don't believe it would I just want to clarify that.
    Mr. Turpin. Well, let me add to that. I don't believe it 
would change the review of the facilities, you know, the 
environmental review that we do, the current reviews that we do 
under the Natural Gas Act. Under the bill of course we would 
not be reaching out and coordinating with State and Defense.
    Mr. Mullin. So it would basically be you would follow the 
same process kind of like what Mr. Cramer was saying?
    Mr. Turpin. Right.
    Mr. Mullin. Does the Commission have the technical capacity 
to take on the new responsibility?
    Mr. Turpin. In terms of adding oil pipelines, I mean 
pipelines to a large extent are pipelines.
    Mr. Mullin. Agreed.
    Mr. Turpin. There will be some uniqueness to the product in 
it that we haven't had to deal with before, but we can get that 
expertise.
    Mr. Mullin. Uniqueness by?
    Mr. Turpin. Natural gas, I mean as a siting matter 
transport of oil is something we have not had to look at. So 
there will be considerations for spills, considerations for 
that sort of thing.
    Mr. Mullin. Would FERC treat oil pipelines like gas 
pipelines with respect to identification for the jurisdiction 
purposes?
    Mr. Turpin. I don't know. That would have to be set, the 
policy for that would have to be set by the Commission, which 
is I think what would be done in that yearlong rulemaking, and 
then Commission staff would act on whatever policy the 
Commission comes up with.
    Mr. Mullin. Do you have a problem with the timeframe to 
which we put forth with approving the permit?
    Mr. Turpin. As I read it, it is 120 days after the final 
NEPA document and that is not an issue.
    Mr. Mullin. Not an issue. Would the draft legislation have 
any effect on the NEPA or a shortcut to the Commission's 
environmental review in any way?
    Mr. Turpin. I do not believe so.
    Mr. Mullin. OK, real quick that was all I had. I just 
wanted to clarify some concerns that we have heard about this. 
So Mr. Turpin, appreciate it and Mr. Chairman, I yield back.
    Mr. Walberg. I thank the gentleman and I recognize the 
gentleman from Missouri. Welcome back, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman. And Mr. Turpin, the 
Promoting Interagency Coordination for Review of Natural Gas 
Pipelines discussion draft requires early outreach to 
permitting agencies. How does this help FERC and other agencies 
coordinate to make sure their input and concerns are addressed?
    Mr. Turpin. I think it allows the applicant to get out to 
those agencies at the earliest possible time before they have 
developed the routes, before they develop the projects so that 
the agencies can identify what data needs they have, can 
influence what the applicant does in the design to mitigate any 
impacts, and give the applicant the most notice on what sort of 
studies might be needed for when the applications are filed.
    Mr. Long. OK. Can you discuss the ways that we could reduce 
the uncertainty in the review schedule to make sure the reviews 
are completed in a timely manner?
    Mr. Turpin. I think the largest, single most crucial factor 
in doing that is developing the data needed by all the 
different agencies for their mandates.
    Mr. Long. OK.
    Mr. Katz, you mentioned in the next 15 years almost half of 
licensed projects will begin the relicensing process. How can 
we make sure that the relicensing projects are completed in a 
timely manner?
    Mr. Katz. It is a difficult ask given that there are 
statutory mandates that allow other agencies to in effect set 
the timeframe. I think that some of the efficiencies that are 
being proposed in the current act will help.
    Mr. Long. Say that again, you think that what?
    Mr. Katz. I think that some of the measures provided in the 
acts before us will introduce efficiency and help the 
Commission move ahead to do things in as timely a manner as 
possible. And I think the Commission staff and the Commission 
itself will be committed to getting those licenses done as 
quickly as possible, but we don't have complete control given 
the exercise of authority under Federal law by State and other 
Federal agencies.
    Mr. Long. All right. Currently FERC can grant an extension 
of just 2 years from the commencement of the project 
construction. Could you expand on how the discussion draft 
gives FERC flexibility on cases that require additional time to 
begin construction?
    Mr. Katz. Yes, the discussion draft would allow the 
Commission to extend the commencement of construction deadline 
for several additional years and that might help certain 
projects that are having trouble sort of dotting there is and 
crossing their Ts before they get started. So it would be a 
help to some projects.
    Mr. Long. Ok. And Mr. Chairman, that is all I have, and I 
yield back.
    Mr. Olson [presiding]. The gentleman yields back.
    Seeing there are no further members wishing to ask 
questions for the first panel, I would like to thank both you, 
Mr. Turpin, and you, Mr. Katz, for being our witnesses today. 
This will conclude our first panel, and we will now take a few 
minutes to set up for the second panel.
    [Recess.]
    Mr. Olson. Welcome back, and thank you for your patience 
and for taking your time to be here today. We now move into our 
second panel for today's hearing. We will follow the same 
format as the first panel. Each witness will be given 5 minutes 
for an opening statement followed by a round of questions from 
our members.
    For the second panel we have the following witnesses: Mr. 
Jeffrey Soth, he is a legislative director and political 
director at the International Union of Operating Engineers; Mr. 
Jeffrey Leahey, the deputy executive director of the National 
Hydropower Association; Mr. William Robert Irvin, president and 
CEO of American Rivers; Ms. Jennifer Danis, the senior staff 
attorney at the Eastern Environmental Law Center; Mr. Donald 
Santa, president and CEO of the Interstate Natural Gas 
Association of America; and Mr. Andrew Black, president and CEO 
of Association of Oil Pipe Lines.
    We appreciate you all being here today. We will begin this 
panel with Mr. Soth, and you are now recognized for 5 minutes 
to give an opening statement.

STATEMENTS OF JEFFREY SOTH, LEGISLATIVE AND POLITICAL DIRECTOR, 
  INTERNATIONAL UNION OF OPERATING ENGINEERS; JEFFREY LEAHEY, 
  DEPUTY EXECUTIVE DIRECTOR, NATIONAL HYDROPOWER ASSOCIATION; 
 WILLIAM ROBERT IRVIN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
 AMERICAN RIVERS, INC.; JENNIFER DANIS, SENIOR STAFF ATTORNEY, 
 EASTERN ENVIRONMENTAL LAW CENTER; DONALD F. SANTA, PRESIDENT 
AND CHIEF EXECUTIVE OFFICER, INTERSTATE NATURAL GAS ASSOCIATION 
  OF AMERICA; AND ANDREW BLACK, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, ASSOCIATION OF OIL PIPE LINES

                   STATEMENT OF JEFFREY SOTH

    Mr. Soth. Thank you, Vice Chairman Olson, Ranking Member 
Rush, members of the subcommittee, it is an honor to join you 
at your first legislative hearing to the 115th Congress. My 
name is Jeffrey Soth. I am legislative and political director 
of the International Union of Operating Engineers. The Union 
represents almost 400,000 men and women in the United States 
and Canada. In short, we build and maintain the cranes, 
bulldozers, and backhoes that build North America.
    Members of the Operating Engineers are some of the most 
highly skilled, highly trained construction craft workers in 
the world. We deliver training at over 86 facilities in the 
United States where we employ 550 instructors. The IUOE and its 
employers invest over $128 million annually in local 
apprenticeship and training programs, and I want to point out 
here, at no cost to the public. That is exclusively, privately 
financed.
    In addition to the training of local unions, the IUOE 
conducts specialized national training in coordination with the 
Pipe Line Contractors Association in the pipeline sector. We 
invest over 5 million annually in that work to ensure the safe 
installation and construction techniques in the pipeline 
industry making it the safest in the world. The pipeline 
training program has historically been delivered at locations 
around the country where there is a large project or regional 
demand for pipeline training.
    What I am pleased to share with the committee that the IUOE 
is building a new home for its pipeline training in Crosby, 
Texas. In spring 2018, the IUOE will open our international 
training and education center, $150 million training center in 
the heart of the Gulf Coast. I have attached a rendering of the 
facility and a site plan of the project where you can see just 
how much of that property is dedicated to pipeline training. 
And again this facility is being built at no cost to the 
public. There are no public resources, no taxpayer dollars 
whatsoever associated with the $150 million investment.
    Let me turn now to employment and wages in the construction 
sector and in the pipeline industry in particular. The 
construction industry has the highest unemployment rate of any 
industry sector at 8.4 percent. Employment in the oil and gas 
pipeline sector of the construction industry is near a 5-year 
low. Please see the chart attached to my testimony.
    As you can tell from it, we are down about 20 percent of 
total jobs in the sector since the summer of 2015. I should 
point out that these are good, family sustaining jobs. 
Production and nonsupervisory workers make over $30 an hour in 
the pipeline industry, and compare that to $21.90 in all 
private sector payrolls.
    After that description and background of the IUOE's role in 
training and our look at labor market information, let me turn 
to the legislation before the committee and two pieces of 
legislation in particular related to pipelines.
    Regulatory uncertainty and procedural delays during 
environmental review are hindering the growth of these good 
jobs and the other benefits that go along with this domestic 
energy production. Congress needs to update and streamline the 
permitting and regulatory framework to ensure that the domestic 
oil and gas industry flourishes in a safe and predictable way. 
To put it simply, it is time to modernize the Federal code for 
energy infrastructure.
    That is why they IUOE supports the Cross-border Energy 
Infrastructure Act and the Promoting Interagency Coordination 
for Review of Natural Gas Pipelines Act. The cross-border 
legislation in particular takes the important step of codifying 
the process to permit a project that crosses the border. Now 
that there is not a controversial project under consideration 
it is the right time to make this move away from the ambiguity 
of an executive order.
    Frankly, it is time to legislate regarding cross-border 
permits. The State Department's inspector general described the 
problem in a special report in February of 2012 when it 
reviewed the Keystone XL permit process. It determined that the 
limited expertise and experience of State Department officials 
with respect to NEPA and environmental reviews frustrated and 
delayed the permitting process for KXL, perhaps even leading to 
a need for a whole supplemental EIS and adding 11 months to 
that process.
    It is time to place responsibility for cross-border permits 
in an experienced environmental agency like FERC. The 
interagency coordination bill makes important reforms to 
natural gas pipeline permitting. The bill will give FERC 
additional tools to identify potential issues that can hinder 
State and Federal agencies from conducting timely reviews.
    It is an important evolution from the simple 12-month limit 
legislation that has been considered in past Congresses and it 
is time to more closely address, that this legislation more 
closely addresses the real problems associated with permitting 
delays. The IUOE encourages you to pass these two pieces of 
legislation and we look forward to working with the committee 
to enact them in this 115th Congress. And thank you, Vice 
Chairman Olson, for the opportunity. It was a pleasure to join 
you today.
    [The prepared statement of Mr. Soth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Soth.
    The Chair now calls upon Mr. Leahey for 5 minutes for an 
opening statement.

                  STATEMENT OF JEFFREY LEAHEY

    Mr. Leahey. Vice Chairman Olson, Ranking Member Rush, and 
members of the subcommittee, thank you. I am pleased to be here 
to discuss the importance of hydro to the electric system, its 
untapped growth potential, the challenges that impede growth, 
and bills before the subcommittee today.
    Hydro provides six to seven percent of all electricity 
generation and nearly half of all renewable generation, making 
hydro the largest provider of renewable electricity. Another 42 
pump storage plants make up almost all, 97 percent, of energy 
storage. This system contributes to cleaner air and provides 
other benefits, including river management for fish and habitat 
protection, flood control, drought management, water supply, 
irrigation and more.
    Hydro also provides many grid benefits: base load power, 
peaking generation, load following, reliability. With the 
growing need for these services, hydro has increased capacity 
by nearly two gigawatts since 2005.
    Hydro infrastructure also brings many economic benefits. 
The industry employs a work force of almost 150,000 and access 
to low-cost, clean, reliable power attracts many high tech 
firms and manufacturers. But hydro can do even more. The myth 
is that hydro is tapped out. But that is not the case and I 
direct the subcommittee to the 2016 Department of Energy 
Hydropower Vision Report. This report with input from industry, 
environmental groups, and State and Federal agencies outlines 
50 gigawatts of growth potential by 2050.
    Let me highlight two prime examples, pump storage and 
building on existing infrastructure nonpowered dams and 
conduits, the focus of three of the bills today. Pump storage 
can rapidly shift, store, and reuse energy until there is 
corresponding system demand while facilitating the integration 
of variable generation. As more intermittent and renewable 
generation is added to the grid and other base load generation 
is lost, the need for pump storage is increasing particularly 
in the West.
    Of the 80,000 U.S. dams, only 3 percent generate 
electricity highlighting the potential in the nonpowered dam 
sector. Many of these opportunities are located in regions some 
may considered unexpected, such as the Southeast and Rust Belt 
States. Conduit opportunities are also available across the 
country where power generating equipment can be added to 
tunnels, canals, and pipes. However, projects are not being 
deployed due to the uncertain, duplicative, and lengthy overall 
regulatory process.
    NHA member company, Missouri River Energy Services, reports 
that their new project at a Corps of Engineers dam in Iowa will 
come on line in 2018, having started the development process in 
2005, 13 years ago. I cannot overstate how crucial it is to 
enact process reforms immediately. The Nation could access huge 
amounts of reliable low-cost power without sacrificing other 
values.
    Existing project owners are also expressing concerns. With 
well over 400 projects up for relicensing by 2030, NHA is 
already hearing from owners particularly in the Northeast that 
the time and cost for licensing may render projects uneconomic 
and result in license surrenders. Congress must address the 
challenges both asset owners and developers face.
    Over the last 5 years, this subcommittee has developed an 
extensive record on the problems experienced by industry. The 
message has been clear and consistent. Licensing takes years to 
complete, requires substantial up-front costs, and contains too 
much uncertainty and risk, all of which for a developer creates 
a significant barrier to securing financing or capital and for 
a utility makes it difficult to justify project economics.
    Turning to the bills before the subcommittee today, NHA 
strongly supports policies to address inefficiencies and 
improve the coordination in the project approval process which 
we believe will promote the hydropower resource while also 
protecting environmental values. I have included specific 
comments on all of the bills in my written statement and ask 
permission to include for the record additional letters of 
support that are submitted following this hearing.
    Focusing on the Hydropower Regulatory Modernization Act, it 
incorporates bipartisan proposals that NHA supports and which 
were included in legislation in last Congress. It is a crucial 
first step to address the barriers to developing hydropower's 
untapped potential and the problems experienced in relicensing.
    Empowering FERC as the lead agency to coordinate the 
schedule, requiring FERC and agencies to coordinate, 
facilitating concurrent decision making, early identification 
of issues, and elevating disputes to leadership are 
improvements that should increase transparency and 
accountability and eliminate delays. However, NHA also believes 
improvements to the bill are needed as the language appears to 
rescind important provisions under current law.
    This includes the requirement for agencies to give equal 
consideration to developmental and nondevelopmental values when 
crafting mandatory conditions, and the opportunity for 
discovery and cross examination as part of the trial-type 
hearings process. These received bipartisan support when 
adopted and were backed by industry and stakeholders alike.
    Finally, NHA believes continued work through last year on 
some of these provisions resulted in new language that provides 
further clarity and direction and should be adopted. And we 
believe this hearing creates an opportunity for further 
dialogue on issues documented in the record but for which 
solutions were not advanced. And with that I will conclude my 
testimony and I look forward to answering your questions.
    [The prepared statement of Mr. Leahey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Leahey.
    The Chair now calls upon Mr. Irvin for a 5-minute opening 
statement.

               STATEMENT OF WILLIAM ROBERT IRVIN

    Mr. Irvin. Vice Chairman Olson, Ranking Member Rush, 
members of the subcommittee, thank you for the opportunity to 
testify today on the hydropower bills being considered by this 
committee. My name is William Robert Irvin. I am president and 
CEO of American Rivers, a national conservation organization 
that works to protect wild rivers, restore damaged rivers, and 
conserve clean water for people and nature. I also served as a 
member of the senior peer review group for the Department of 
Energy's Hydro Vision Report which was issued last year.
    Let me begin by stating very clearly that while we are pro-
rivers, American Rivers is not anti-hydropower. Hydropower is 
and will remain a key part of our Nation's energy portfolio. 
Our staff has participated in hundreds of FERC proceedings 
resulting in the generation of thousands of megawatts of 
electricity and improved environmental performance at those 
generating facilities. In addition, we have supported 
legislation to incentivize sustainable hydropower projects.
    American Rivers also recognizes that when cited and 
operated responsibly, hydropower can be beneficial as a low-
carbon, renewable energy source. It is certainly better for the 
climate than burning fossil fuels, but it is not carbon-free 
due to the methane emissions from reservoirs. Nevertheless, 
when sited and operated irresponsibly, hydropower can do great 
harm to rivers and the wildlife and communities that depend on 
them.
    By changing the flow of rivers, hydropower dams have harmed 
fish, mussels, and other aquatic species, and pushed some to 
the brink of extinction. Hydropower can have toxic effects on 
water quality. Hydropower dams can de-water stretches of river 
and have in the past been built with callous disregard of 
Native American sacred sites and ancestral lands. To prevent 
these harmful impacts, we have laws in place to protect 
endangered species and clean water and to give States, Tribes, 
and Federal resource agencies a meaningful seat at the 
hydropower licensing table.
    Accordingly, in evaluating any proposed changes to the 
hydropower licensing process, American Rivers, and indeed the 
larger environmental community, will vigorously oppose any 
effort to limit the application of the Endangered Species Act 
or the Clean Water Act to hydropower dams to infringe upon 
State water law and State authority to manage water rights, to 
limit the protections afforded to Native Americans and the 
Native American Tribes in hydropower licensing, to limit the 
ability of the United States to protect federally managed 
fisheries and taxpayer-owned public lands, or to limit the 
authority of State agencies to protect fish, wildlife, and 
other natural resources within their State.
    Regrettably, as I have described in my written testimony, 
the draft bills before the subcommittee fail these tests. At 
the heart of each of these bills is the flawed principle that 
FERC should be elevated above other Federal, State, and Tribal 
agencies in the licensing process and be able to limit Federal, 
State, and Tribal authorities over rivers.
    Giving FERC the power to decide questions of fisheries 
biology makes as much sense as giving the National Marine 
Fisheries Service the authority to decide interstate 
electricity tariff cases. Giving FERC the authority to decide 
questions of Native American treaty rights makes as much sense 
as giving the Bureau of Indian Affairs the final say over 
reliability standards for interstate, high voltage 
transmission. And giving FERC the final say over matters of 
State water law upends the prior appropriation doctrine in the 
West and challenges riparian water law that goes back to 
colonial times in the East.
    The draft bills before you will not improve licensing or 
promote environmental protection. Instead, these bills will 
lead to legal gridlock and environmental degradation. I hope 
that rather than rushing these bills forward, the committee 
will instead work with stakeholders, including American Rivers, 
to develop legislation to facilitate responsible hydropower 
development while protecting healthy rivers, wildlife, and 
communities.
    In my written testimony I provided some common sense 
approaches to improving the licensing process without harming 
the environment. If the committee chooses to convene a 
stakeholder process to develop licensing reform that maintains 
protection of rivers, I can assure you that American Rivers 
will roll up our sleeves and get to work with all the 
interested parties.
    Thank you for the opportunity to testify today and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Irvin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Irvin.
    And the Chair now recognizes for 5 minutes Ms. Danis for an 
opening statement.

                  STATEMENT OF JENNIFER DANIS

    Ms. Danis. I want to thank the committee for the 
opportunity to testify. My name is Jennifer Danis and I am a 
senior staff attorney with the Eastern Environmental Law Center 
representing New Jersey Conservation Foundation and Stony 
Brook-Millstone Watershed Association.
    The proposed changes contained in the Interagency 
Coordination Act are unnecessary and would upset the careful 
balance of cooperative federalism that exists under the Clean 
Water Act, the Clean Air Act, and the Coastal Zone Management 
Act. The changes would inappropriately expand FERC's natural 
gas authority, attempt to undermine States' rights, and 
undermine the important role that other Federal and State 
agencies play in protecting natural resources for the public.
    As we have already heard this morning, the proposed changes 
are a solution in search of a problem because FERC approves 
over 90 percent of projects within 1 year. FERC administers 
applications for both Section 3 and Section 7 approvals on a 
case by case basis subject to the statutory standards of the 
Natural Gas Act, operating under no larger Federal energy 
program. These approvals are major Federal actions under NEPA 
and as such FERC is required to consider their environmental 
impacts.
    Yet FERC uses an extraordinarily narrow approach of its 
regulatory role under NEPA. For example, FERC has expressed its 
view that it is not FERC's duty to assess project purpose and 
need beyond accepting the applicant's stated project goal. This 
approach limits FERC's need for review excluding real analysis 
of alternatives. FERC will only consider alternatives to 
natural gas transmission pipelines that are other natural gas 
transmission pipelines.
    Similarly, FERC takes an extremely narrow approach to 
environmental impact assessments. FERC's assessment of 
environmental impacts routinely finds that a project's 
environmental impacts will not be significant so long as other 
Federal agencies or State agencies acting pursuant to Federal 
law separately assess the project's environmental harm under 
substantive statutes such as the Clean Water Act, the Clean Air 
Act, and the Coastal Zone Management Act.
    FERC considers authorizations on a case-by-case basis not 
subject to any Federal energy program or regional planning. As 
such, FERC's ad hoc authorizations demand robust, ancillary 
Federal authorizations by agencies operating subject to 
comprehensive plans to protect our water and air for future 
generations. For FERC projects, the comprehensive environmental 
impacts analyses required by NEPA are consistently performed by 
those other Federal and State agencies in their independent 
review under substantive environmental laws.
    Although the proposed bill is entitled Promoting Agency 
Coordination for Review of Natural Gas Pipelines, the essence 
of the proposed changes would generate not resolve conflict 
between and among Federal and State agencies currently 
responsible for evaluating the actual impacts of Section 3 and 
Section 7 projects. In fact, the proposed amendments threaten 
to abrogate State and Federal powers and duties under those 
laws.
    Congress carefully allocated cooperative and specific roles 
for the States and for the relevant Federal agencies when 
enacting those substantive laws. They all explicitly recognize 
the critical role that the States play in protecting water and 
air quality. In fact, a key legislative purpose of the Clean 
Water Act was to uphold the primary responsibility for 
controlling water pollution that rests with the States.
    From its inception, the 401 Certification requirement was a 
mechanism to explicitly protect States' ability to regulate 
water quality standards and pollution control ensuring their 
ability to enforce more stringent standards than Federal ones. 
Under the Clean Air Act and Coastal Zone Management Act, the 
State may also designate standards more protective but not less 
than Federal ones. These NGA amendments would create overt 
clashes with existing Federal statutes designed to protect 
water and air and to preserve the States' role in that process. 
For example, the proposed amendments attempting to allow FERC 
to define the scope of environmental review for the States or 
agencies acting pursuant to Clean Water Act authority would 
clearly run afoul of the Clean Water Act's goals.
    The Clean Water Act is a model of cooperative federalism. 
There is no need for Congress to disturb this careful balance. 
Of the hundreds of energy infrastructure projects authorized by 
FERC, there have been only three. A tiny percentage that States 
have determined cannot be constructed in accordance with 
controlling water quality standards. Industry cries of abusing 
reserved and primary powers by the States to protect water 
quality must stem from a mistaken belief that any certification 
denials constitute an abuse of authority.
    I see my time is coming to a close. I am happy to answer 
any questions. Thank you for the opportunity to testify.
    [The prepared statement of Ms. Danis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Ms. Danis.
    The Chair now calls upon Mr. Santa for 5 minutes to give an 
opening statement.

                  STATEMENT OF DONALD F. SANTA

    Mr. Santa. Good afternoon, Vice Chairman Olson, Ranking 
Member Rush, and the members of the subcommittee. My name is 
Donald Santa and I am the president and CEO of the Interstate 
Natural Gas Association of America, or INGAA. Our members 
transport the vast majority of the natural gas consumed in the 
United States through a network of approximately 200,000 miles 
of interstate transmission pipelines.
    These transmission pipelines are analogous to the 
interstate highway system. In other words, they are large 
capacity transportation systems spanning multiple States or 
regions. Thank you for the opportunity to share INGAA's 
perspective on the discussion draft of legislation to improve 
agency coordination during the review of federally regulated 
natural gas pipeline projects.
    While the Federal Energy Regulatory Commission has 
exclusive authority to grant the certificate required to 
construct an interstate natural gas pipeline, various Federal 
and State agencies are responsible for granting other 
environmental and land use permits and approvals that must be 
obtained before a pipeline company may commence construction. 
This is not the first time that INGAA has testified before this 
subcommittee on the need to improve the natural gas pipeline 
permitting process.
    The need for action is even greater today because the 
pipeline review and permitting process has only become more 
protracted and more challenging. Federal permitting agencies 
are taking longer and in some cases are electing not to 
initiate reviews until FERC has completed its review of a 
proposed pipeline project. These disjointed, sequential reviews 
cause delay and in some cases create the need for supplemental 
environmental analysis. This is unnecessary and avoidable.
    Regulations implementing the National Environmental Policy 
Act provide for designating a lead agency to coordinate the 
review of a proposed major Federal action. The lead agency in 
turn identifies and works with cooperating agencies to develop 
a single environmental document for the project. Congress, as 
part of the Energy Policy Act of 2005, designated FERC as the 
lead agency for natural gas pipeline projects subject to the 
Commission's jurisdiction.
    EPAct 2005 also provided a framework for FERC to coordinate 
the various permitting reviews connected with a natural gas 
pipeline project and to set a deadline for other agencies to 
complete their work. Notwithstanding the congressional intent 
expressed in EPAct 2005, it has been a challenge to get Federal 
and State agencies to work cooperatively and constructively 
within this framework. The recent experience of an INGAA member 
company illustrates the point.
    The company has proposed a pipeline that would intersect 
the Blue Ridge Parkway and the Appalachian National Scenic 
Trail in Virginia. The company proposed a nearly one-mile, 
horizontal drill under a mountain so that the pipeline would 
cause no surface disturbances, no tree clearing, and no 
interference with public access to the Parkway or Trail. The 
Park Service responded with indifference to the pipeline 
operator's efforts to minimize the impact of its project. The 
Park Service took 14 months to review a 22-page application to 
survey the area. Once permission was granted, the survey work 
was completed in a single afternoon.
    The survey, however, is only an initial step. The Park 
Service has yet to complete its extensive review of the 
pipeline operator's application for a permit to drill beneath 
the Parkway and Trail. We clearly need better agency engagement 
and decision making than that demonstrated by the Park Service 
in this example.
    These kinds of permitting delays are becoming much more 
frequent and are not confined to the Park Service. Because 
there is no direct accountability for this lack of engagement, 
agencies with limited resources are free to either ignore or to 
delay their response to requests to participate in the review 
of a proposed pipeline project.
    Let me be clear that INGAA is not seeking diminution of the 
substantive requirements connected with permits that must be 
obtained to construct interstate natural gas pipeline. INGAA 
simply seeks greater certainty regarding the schedule for 
reviewing and acting upon applications for such permits and 
better coordination among the agencies responsible for issuing 
permits.
    We appreciate the committee's leadership in drafting 
legislation to address this need. INGAA encourages the 
committee to provide even greater structure in detailed 
guidance so that there is no misunderstanding about 
congressional intent for the pipeline permitting process. 
Legislation to achieve this result is not unprecedented or 
outside the mainstream. The process created by Congress in 
highway authorization legislation offers a model. INGAA 
encourages you to be bold.
    INGAA's written testimony includes specific recommendations 
for strengthening and refining the language of the draft bill 
to achieve its stated goals. We want to work with you in 
strengthening this bill and make it more effective in 
coordinating the necessary permitting reviews. Thank you for 
the opportunity to testify today.
    [The prepared statement of Mr. Santa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Santa.
    The Chair now calls upon Mr. Black for a 5-minute opening 
statement.

                   STATEMENT OF ANDREW BLACK

    Mr. Black. Thank you, Mr. Chairman. And if you will permit, 
I would like to thank Mr. Barton for his nice comments on the 
sudden passing of my dad Bill Black in Houston last week. Dad 
admired what he did on committee and the floor. Dad would laugh 
and have me thank the Congress for entertainment over the 
years, and then he would tell me to get back to work, so I 
will.
    I am Andy Black with the Association of Oil Pipe Lines. 
AOPL represents owners and operators of liquid pipelines 
transporting crude oil, refined products like gasoline and 
diesel, and natural gas liquids such as propane and ethane to 
American workers and consumers. The presidential permit process 
for cross-border energy pipelines needs reform. The poster 
child for presidential permit cross-border abuse is well known. 
The Keystone XL delay from 2008 to 2015 under the previous 
administration was inexcusable. No permit review process of any 
kind should take that long.
    While delay of the Keystone XL pipeline project garnered 
widespread public attention, there were many other applications 
stuck at the State Department also facing multiyear delays. 
Many of those projects were simple changes of ownership filings 
with no impact on the pipelines' operations or border crossing 
status. Ironically, the Keystone XL NEPA environmental impact 
statement conducted by the previous administration found that 
building the pipeline would do more to protect the environment 
and avoid greenhouse gas emissions than any alternative 
including rejecting the pipeline.
    According to U.S. Government statistics, more than 99.999 
percent of petroleum products shipped by pipeline reach their 
destination safely. The State Department review found the 
alternatives to not building KXL and forcing that crude oil 
onto other modes of transportation would result in 2.6 times 
more crude oil released and 832 times more releases per year. 
The State Department study also found the project would provide 
tens of thousands of U.S. jobs in construction, manufacturing, 
trade, finance, insurance, professional services, health 
services, food accommodations, and more, with more than $2 
billion in worker payroll.
    Good paying jobs are the benefit of every pipeline project. 
Whenever a major project is proposed across our international 
borders or just within the U.S., thousands of jobs with 
millions of dollars in worker payroll can follow and increase 
tax revenues to governments. And consumers across the country 
also benefit from the downward pressure on gasoline and diesel 
prices that new crude oil supplies bring.
    As pipeline operators, we know the ultimate reasons for 
delay and rejection of the Keystone XL pipeline had little to 
do with the superior safety, minimal environmental impact, new 
jobs or consumer benefits of pipelines. Larger forces were at 
work highjacking this project for their own political gain. 
Unfortunately, Keystone XL wasn't the only victim of a 
dysfunctional process.
    Under the last administration we saw review of the simplest 
pipeline permits with the least amount of environmental impact 
grind to a halt. A prime example are the several pipelines that 
run from Canada to Michigan delivering liquid petroleum gases 
such as propane and butane for industrial uses in manufacturing 
chemicals, plastics, and similar products, supporting good 
paying jobs in Michigan and beyond.
    For years, a liquid pipeline operator had presidential 
permit applications pending for pipelines crossing that border. 
Under current State Department guidelines, even a change in 
ownership of the pipeline triggered a need to apply for a new 
permit. For more than 5 years, the State Department considered 
whether to issue a permit for something almost as simple as a 
name change.
    There were no operational changes of the pipeline, no 
change in materials or any physical or environmental impacts, 
just many years of review, document requests, and delays. We 
believe the career staff at the State Department faithfully 
executed their duties under executive authority. However, the 
current system with no statutory standards or limits still left 
the process vulnerable to manipulation by senior political 
officials.
    With no obligations under Federal law to reach a timely 
decision, limit the scope of review to the border crossing, or 
avoid wasteful reviews of projects with little or no 
environmental impact, the current process is ripe for abuse. 
The current administration has returned to the original intent 
of the presidential permit process, but without reform a future 
administration could return to the abuses of the past.
    Liquid pipeline operators support reforming the cross-
border approval process and look forward to working with the 
committee. Keys to meaningful reforms are the discussion drafts 
provisions to, 1) provide a statutory time limit for permit 
reviews after any applicable environmental reviews are 
complete; 2) presume approval unless the pipeline is found not 
in the public interest, reflecting the benefit of reducing 
dependence on overseas energy suppliers; 3) limit the border 
crossing permit scope of review to border crossing issues and 
impacts; and 4) exempt modifications to existing cross-border 
facilities because they have no impact on the environment at 
the border crossing. A reformed border crossing approval 
process will ensure that American workers and consumers who 
want access to lower costing energy supplies are not penalized 
by political manipulation. Thank you.
    [The prepared statement of Mr. Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Olson. Thank you, Mr. Black, and thank you to all of 
you for your testimony. We will begin the question and answer 
portion of this hearing, and I will begin my questioning with 
the 5-minute rounds of questions.
    The first question is for you, Mr. Black. And also before 
questions I want to echo the concerns and prayers from Vice 
Chairman Barton about losing your father, Bill, this past week. 
As the voice of over 850,000 fellow Texans, your family has our 
thoughts and prayers in their hearts.
    Mr. Black, those 850,000 Texans I work for, my bosses 
called constituents, get why oil pipelines are important. But 
if I am the average American, why should I care about whether 
cross-border pipelines are approved in a timely way? What would 
you say to those people?
    Mr. Black. Most Americans want lower energy prices and 
available supplies of gasoline, diesel fuel, propane. We have 
got great supplies in Canada to take advantage of and Keystone 
XL and all of the State approvals along the process, they just 
needed Washington to approve that small border crossing. If 
that border crossing had been approved on a timely basis, today 
Americans in your district and elsewhere would be reaping those 
benefits, but they are not.
    Mr. Olson. Now is 850,000 barrels correct per day, 
somewhere in that ballpark, being refined there in South Texas, 
Port of Houston, Port of Beaumont, Port Arthur; is that 
correct?
    Mr. Black. Absolutely, supporting thousands of refinery 
worker jobs.
    Mr. Olson. Thank you.
    The next questions are for you, Mr. Soth and Mr. Santa. 
First to Mr. Soth, Crosby, Texas is not my district, but as a 
Texan I say welcome, howdy. But as you know, pipelines are 
delayed, companies large and small face uncertainty. Not just 
the pipeline owners, but the suppliers, too. There are the 
shippers trying to move their products as well. These delays 
hurt those in the construction industry by looking for some 
predictable work. Can you talk about how red tape and 
uncertainty hurts your members and the ripple effect beyond the 
pipe?
    Mr. Soth. Yes, as Mr. Black mentioned those are jobs 
related to Keystone XL that just simply did not occur. 
Operating Engineers probably have the most labor intensity of 
any union on a pipeline job, and my written testimony mentioned 
those other unions engaged in the process whether that is the 
Laborers' International Union of North America, the Plumbers 
and Pipefitters Union, as well as the Teamsters, and those are 
good jobs that just won't occur. On Keystone XL, the remaining 
segment of it on both sides of the border close to 3,000 
operating engineer jobs alone associated with that. And again 
those are great jobs.
    For us in right-to-work communities like South Dakota that 
have comparatively low wages where our members would earn over 
$35 an hour on the check, that is before the extensive 
investments in pensions, health care for workers' families, as 
well as training investments that are made there. That is the 
way we finance the Pipeline Training Fund in association with 
the Pipe Line Contractors Association. That is 75 cents an hour 
out of every hour worked on a pipeline job that an operating 
engineer would contribute into that fund for the future of the 
work force and to ensure that the workers have the skill 
necessary to make that industry and that specific pipeline as 
safe as can be.
    Mr. Olson. Thank you. Mr. Santa, how does red tape and 
uncertainty hurt your members?
    Mr. Santa. Mr. Olson, it leads to capital investment being 
parked on the sidelines. For example, we took a look at the 
projects that are being held up by the lack of a quorum at the 
FERC and our back-of-the-envelope calculation was that there 
were about $14 billion worth of pipeline projects that had been 
sidelined because of that.
    The delays also have a multiplier effect because, for 
example, in some cases certain activities can occur only in 
certain months of the year due to environmental considerations, 
like tree clearing. So if one misses that window for tree 
clearing, maybe the certificate comes 2 months late, but tree 
clearing can't occur for another 6 months. It also affects, as 
Mr. Soth said, all of those pipeline contractors and workers 
who are on the sideline.
    And finally, there is an effect on consumers in terms of 
more gas pipeline projects bring competitively priced gas that 
brings down home heating bills, electricity bills because gas 
is being used so much for electric generation, and also all of 
the inputs that natural gas is used within manufacturing 
processes that provide jobs and make the United States 
competitive.
    Mr. Olson. One quick question out of curiosity. You 
mentioned a pipeline in Virginia that is going to be put a 
thousand feet under the ground, is that correct, or a mile 
underground?
    Mr. Santa. The horizontal length of the drilling that will 
go beneath the mountain is going to be approximately one mile.
    Mr. Olson. One mile. Keystone is 50 feet, correct? How much 
does that cost going down one mile as opposed going 50 feet 
down which is very safe?
    Mr. Santa. I do not have that figure, but I do know that it 
adds considerably to the cost of the project. But the intent 
there was to minimize the environmental impact of it and create 
a path that would enable the project to get built.
    Mr. Olson. In Texas we say that is a whole lot of money. 
And my time has expired. I yield to the Ranking Member Mr. Rush 
for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Mr. Black, I want to also join and extend my condolences to 
you and your family on behalf of your father. I know that it 
is--I admire your courage to come here in the midst of your 
mourning and your grieving to appear before this committee. I 
have a recently departed wife and so I know what it means and I 
know how you feel. So thank you.
    I have a question, Mr. Chairman, for both Ms. Danis and Mr. 
Irvin. In your professional opinion, do you believe that 
requiring other agencies to defer to FERC on the scope of 
environmental review would help expedite the natural gas 
permitting and hydropower licensing process leading to fewer or 
more licenses; and the second part of the question is, are FERC 
staff equipped to determine the scope of environmental review 
over and above the experts in other agencies with jurisdiction 
over these same issues?
    Ms. Danis. We heard testimony earlier this morning from 
FERC itself that FERC is not versed in other agencies' review 
obligations under their substantive environmental statutes. So 
allowing a nonenvironmental agency or requiring a 
nonenvironmental agency to define the scope of review for other 
sister Federal agencies or States' agencies acting under 
delegated Federal authority would inevitably generate more 
conflict, more litigation, and end up in really a morass of 
permitting difficulties as the agencies' responsible for 
implementing comprehensive environmental review programs, such 
as the Clean Water Act or the Clean Air Act, are required to 
report to FERC or to explain to FERC why they must require in-
depth inquiries of their own that exceed those that FERC would 
require or look at under the Natural Gas Act.
    Mr. Irvin. As I said in my statement, Mr. Rush, giving FERC 
primacy over other Federal resource agencies, over State 
agencies, and over Tribes in these issues would only lead to 
additional litigation and environmental degradation. The 
Federal resource agencies have the expertise on things like the 
Endangered Species Act, Tribes' certainly very important 
concerns that they want to uphold whether it be with regard to 
fish and wildlife resources or things like sacred and ancestral 
sites, and the States have great expertise and authority in 
evaluating water quality certification under the Clean Water 
Act.
    There is also a well-established body of law under the 
Federal Power Act that deals with this interaction among the 
various agencies. And the courts have been very clear that the 
resource agencies, the Federal resource agencies and the States 
have the authority to enforce the Clean Water Act and the 
Endangered Species Act and that FERC needs to defer to those 
agencies in doing that. If as these bills would do, you upset 
that well established body of law you have got to figure out 
how is it going to work going forward which invariably will 
lead to additional litigation.
    Mr. Rush. I want to ask Mr. Soth. I come from a district 
that has very high unemployment, and notwithstanding these 
matters that we are discussing now in terms of the pipeline, 
how do you foresee in your training programs, how do you deal 
with the question of diversity in your training programs, 
because my experience as a member of the city council in 
Chicago is that we have always had problems diversifying so 
many unions, trade unions, in Chicago. So how do you see this 
going forward, the issue of diversity in your training and your 
employees?
    Mr. Soth. Apprenticeship, Congressman, is really one of the 
key methods by which we bring new entrants into the industry, 
and it is a key method to increase the diversity of the union. 
Within our apprenticeship programs at the IUOE, 23 percent of 
apprentices are people of color. We have eight percent of women 
in our construction. Eight percent of apprentices are women in 
our construction programs.
    And that is an objective for our leadership to pursue 
diversity and, really, apprenticeship is that primary method 
and tool by which we increase our numbers of people of color 
and women in the trade.
    Mr. Olson. The gentleman's time has expired. The Chair 
calls upon the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman, I do 
appreciate it.
    And Mr. Santa, you may be aware of this, but I am going to 
use you for a minute as an example. I am always talking about 
my district which is the 9th congressional district of Virginia 
and that sometimes the policies of the previous administration 
related to coal didn't take into account that every mountain is 
different.
    In relation to the pipeline that you are referencing, it is 
a perfect example of why you have to look at every mountain a 
little bit differently, because not only does it affect the 
Appalachian Trail and the Blue Ridge Parkway as you mentioned, 
and you mentioned it reduced the environmental risk, for those 
who don't know and I am sure you do know, but that was all 
about a salamander that lives on one mountain in Virginia. And 
the mountains in Virginia, the Appalachians in Virginia have 
lots of those kinds of things that happen, a salamander that 
might only live in one or two mountain areas.
    The same is true for our mineral deposits, and sometimes 
one mountain will have lots of gas in the coal mine and the 
next mountain won't have any gas at all and they can be very 
close together. So you gave me a perfect example to explain to 
folks what I have been talking about for years. You have got to 
look at every mountain a little bit differently, which is why 
we ought to leave the Clean Water Act and allow the States to 
make a lot of these determinations because every mountain is 
different, every river is different.
    And that brings me to rivers, Mr. Irvin. You indicated, and 
I am not going to ask you to give me a dissertation today. But 
if you could send me the information on how you think that the 
bill or one of the bills that we are talking about today 
impacts riparian rights in the East I would greatly appreciate 
it. Because it is of interest to me because we were talking 
earlier today and a couple of us got together down here and 
they were talking about how the rivers belong to everybody 
except there are exceptions.
    Because in my district there is a part of the river that 
the king gave the entire river not just a piece of it, not just 
the water, the whole river, and as a result of that there are 
people who can actually keep other folks from floating down the 
river because they own that surface right there, so it is very 
interesting. But if you could forward that to me I would 
greatly appreciate it.
    Mr. Irvin. We will be happy to do that, Congressman. And 
each State has the responsibility for water rights and water 
law in their States, and it varies from State to State, with a 
big difference between the West and the East.
    Mr. Griffith. Yes, sir.
    Mr. Irvin. That is why changing the law to give FERC 
authority or primacy over States when they are seeking to 
protect their rivers and waters is so problematic.
    Mr. Griffith. And not only do we have kings' grants in 
Virginia, but obviously the eastern law is based on the English 
common law and the western law is based on the European 
continental methods or models.
    Mr. Leahey, now with the subject I was really supposed to 
talk about in my questions, but I do find that your testimony--
and sometimes when you get late in a hearing, you think maybe 
it is not making any difference; we are paying attention--but 
the closed loop hydropower: My region is very interested in 
this because we believe it is a way that we can bring life back 
to some--obviously you aren't going to have hundreds or 
thousands--but a couple of abandoned coal mines in our area. So 
I would ask you to discuss what you believe might be some of 
the possibilities for using that kind of technology or that 
kind of a system in our abandoned mines.
    Mr. Leahey. Sure, absolutely. And as FERC testified earlier 
today, they have already approved one project that has a very 
similar configuration, a different type of mine than a coal 
mine. We have seen a growing list of proposed projects across 
the United States for both open loop and closed loop pump 
storage in the type of arrangement that you are talking about, 
so we see that there is great potential for these types of 
projects.
    One thing that I would like to say with regards to the 
modernization bill is that we do not read that bill to repeal 
any of the authorities of the States, the Tribes, or the 
agencies. They still have those responsibilities and NHA 
believes those are appropriate responsibilities under those 
laws. What we believe the bill tries to do is get FERC in 
charge of putting together the coordination of the schedule.
    And as others have talked about on this panel and as I said 
in my testimony, when you have projects that are going not just 
2 years, 4 years, 6 years, but 8, 10, 12, or 14 years from 
concept to construction and operation that is almost a death 
knell for those projects.
    Mr. Griffith. And I appreciate that. And I will take a look 
at that language very carefully after having reviewed Mr. 
Irvin's information, because I am very interested in property 
rights and the historical rights of the various States. 
Likewise on the SHORE Act, which you all have not taken a 
position on.
    One of the reasons that I really like that act it was 
introduced previously by my colleague Robert Hurt. He decided 
to retire, and since I am affected by it too I picked up the 
language that has previously been approved by the House. But 
one of the reasons I am so interested in it is I did some 
property right cases on the lake one time and they don't have 
all the power that--they didn't acquire as much as they thought 
they acquired when they did the deeds back in the 1950s and 
they are, I think, stepping on some property rights, so I will 
be looking at that too.
    Mr. Leahey. Well, and Congressman, we would be happy to 
work with you on that bill going forward. Like I said in my 
testimony, we just want to be sure that the safe operation of 
the project is, and our members are able to continue to do 
that.
    Mr. Griffith. And I think we can have both interests 
secured in the end, but I appreciate it very much. And with 
that Mr. Chairman, I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from California, Mr. Peters, for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. First, I want to start 
by acknowledging my Duke classmate. It is traditional for you 
to talk about Duke Basketball with Mr. Santa. We skipped over 
that part, but I think we will leave it to another time.
    I have some questions about hydro. I want to ask Mr. 
Leahey, you know, there has been concern about whether there is 
a patchwork of State regulations that talk about whether 
hydropower counts as renewable. The draft legislation that we 
are considering today attempts to take that on. Are you 
satisfied that this draft clarifies that so that all hydro is 
considered renewable?
    Mr. Leahey. I believe there is a sense of Congress in the 
provision that would say that all hydro is renewable and then 
it would go back and amend the EPAct of 2005 definition to 
include all hydro as renewable. I think that is very important. 
And to the extent that other statutes and regulations parry off 
of that definition, then I think that will create, it will do 
what it is intended to do which is to make hydro renewable. If 
there are other statutes or regulations which have their own 
definitions then I am not sure, we may have to do some more.
    Mr. Peters. And you just mentioned that there is in your 
written testimony there is discussion of the avoided greenhouse 
gas emissions from hydro. Mr. Irvin made a comment about 
methane. Have you tried to quantify exactly how much greenhouse 
gas we avoid by using hydro?
    Mr. Leahey. There is research that is being done by the 
Department of Energy and internationally. I would note that the 
International Panel on Climate Change has not regulated in this 
area or made recommendations in this area because of the fact 
that the science is not there yet. In addition, there is this 
issue with regards to net emissions of reservoirs. There is 
some of this degassing that happens naturally, and we would 
also point out that reservoirs are multi-use, right, so a 
project is not--any emissions, if there are any, should not be 
ascribed to the hydro generation when it is also potentially 
being used for water supply for cities or for irrigation for 
farms.
    Mr. Peters. OK, and any research that you had on that if 
you could forward it to us would be great. It is my 
understanding that about 40 percent of the U.S. Army Corps' 
hydropower fleet is 50 years old or older and increasingly that 
the Army Corps is engaging in public-private partnerships to 
finance many of its projects. Do you see an opportunity for 
that in the hydropower realm?
    Mr. Leahey. It is probably the largest opportunity, near 
term opportunity that we have. Of the projects that have been 
identified by the Department of Energy, 80 of the top 100 
projects are on Army Corps of Engineers' dams.
    Mr. Peters. Do you see that the law authorizes today those 
partnerships, public-private partnerships, to finance those 
improvements?
    Mr. Leahey. Most of the financing, in my understanding most 
of the financing that is being done is being done by the 
private entity and then coming on to the Corps facility. There 
might be some opportunities for additional public-private 
partnerships with the Corps directly.
    Mr. Peters. Yes, I just want to make sure. Does the law 
authorize this for the hydro facilities? Do you think it does?
    Mr. Leahey. I would have to get back to you on that one. I 
know that there are some differences between what the Corps can 
do with----
    Mr. Peters. Apparently there is some concern within the 
Army Corps that it doesn't, and if you think it needs to be 
changed we would appreciate knowing that.
    Mr. Leahey. I think there are some changes that are needed. 
I would just need to get back to you on what those specifics 
are.
    Mr. Peters. Thank you.
    And then I ask Mr. Irvin. I just think we argue a lot about 
process. And I don't want to give an misimpression about my 
interest in hydro, I want resources to be protected, but I see 
a concern in the amount of time it takes. So with my minute 
left, do you have ideas about how we could reduce the time it 
takes to get these permits and these hydro facilities operating 
and still protect resources? Is there a way we can reduce the 
amount of time?
    Mr. Irvin. Certainly. We have laid out several of these in 
my written testimony, Mr. Peters. They include things like 
presumptive inclusion in the FERC study of plans of studies 
requested by Federal, State, and Tribal agencies, do that up 
front. Promoting memoranda of understanding between FERC, the 
Tribes, and the States to improve the coordination, again do 
that up front.
    There is a need to increase appropriations to the agencies. 
I know that that isn't always a popular topic, but the fact is 
that they need more money and staff in order to do a better 
job. And we also can have improved coordination between FERC 
and the Army Corps of Engineers on these various projects.
    Mr. Peters. Yes. And I would just say I would hope we can 
have more conversation about this. A lot of this is not really 
changing the process. I think it is adding more to the process 
and it provides--I think it is still difficult for me to 
understand in an objective way what improving coordination 
means and how we force that from this room.
    So I will look forward to more conversation about it and 
hope that we can come up with a way that advances this interest 
that I have in reducing greenhouse gases, but also protecting 
rivers which is what we all want. And Mr. Chairman, thank you 
for the time.
    Mr. Olson. The gentleman's time has expired. The Chair 
would like to inform the gentleman and Mr. Santa that my wife 
is a 1985 Duke graduate, so the NCAA basketball tournament was 
a very, dark, dark time in the Olson house.
    The Chair now calls upon the gentleman from Missouri, Mr. 
Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. I am glad I came to this 
hearing today because I didn't even know they played basketball 
at Duke.
    [Laughter.]
    Mr. Long. Mr. Santa, you mentioned in your testimony that 
the pipeline review process is disjointed. I didn't know if 
that was meant as a pun or not, but that being said could you 
discuss why the process is disjointed and do you believe that 
the discussion draft adequately addresses this issue to 
encourage a more coordinated review process?
    Mr. Santa. Thank you for the question, Mr. Long. As Vice 
Chairman Barton observed earlier, I mean the discussion draft 
is trying to get at what the Congress and this committee was 
very influential and it did in the Energy Policy Act of 2005, 
in finding a way to affect that congressional intent.
    I think that the process is somewhat disjointed because as 
was noted by Mr. Turpin earlier there are other Federal and 
State agencies that have got multiple mandates, and for them at 
times issuing these permits that are essential to construct 
pipeline infrastructure may not be a high priority. They may 
not have the resources to do it. And as I noted in my 
testimony, there are times when there is quite a bit of 
unreasonable delay that affects the ability to construct these 
projects on a timely basis.
    I do think that the discussion draft would improve the 
process. In our testimony we offer some examples for ways that 
it can be strengthened, so we think the committee is headed in 
the right direction with the discussion draft and look forward 
to working with the committee on perfecting it.
    Mr. Long. And the current regulations provide for 
establishing deadlines for final permitting determinations. 
Could you discuss how effective this current process is?
    Mr. Santa. It unfortunately has not been very effective. 
One of the problems is that notwithstanding that being part of 
the 2005 law, there wasn't really anything put in there for 
effective enforcement in it. The only recourse was for the 
pipeline applicant to take that permitting agency to court. 
That is awfully difficult because effectively you are suing the 
agency from whom you are trying to get the permit, and also the 
standard of review applied by Federal courts of appeal tends to 
be pretty permissive and highly deferential to the agencies. 
And so, in the limited instances where pipelines have chosen to 
litigate under that provision, it has not been very satisfying.
    Mr. Long. Do you believe the discussion draft that it 
provides accountability for failure to meet the deadlines?
    Mr. Santa. I believe that it does to the extent that it 
requires those agencies that have not met the deadlines to 
report to the Congress. It provides a process for attempting to 
resolve it within the administration and also requires them to 
specify a plan for what they can do to complete their work.
    It is a challenge, because as has been noted by the 
witnesses on the committee those other agencies are acting 
pursuant to their particular legal mandates. We respect that 
but we are also looking for a process that will give us more 
predictability and more timeliness in terms of obtaining 
permits that are needed.
    Mr. Long. OK, thank you. And with that Mr. Chairman, I 
yield back.
    Mr. Olson. The gentleman yields back and the Chair reminds 
the gentleman the last time Duke played Missouri in the 
Tournament was March 17th of 2001 in the East Regional Final: 
Duke 94, Missouri 81.
    Mr. Long. I didn't know they played basketball in Missouri.
    [Laughter.]
    Mr. Olson. Seeing that there are no further Members wishing 
to ask questions for the second panel--oh, I am sorry. I am 
sorry, Paul. I apologize. The Chair now calls upon the 
gentleman from New York, Mr. Paul Tonko, for as much time as he 
wants.
    Mr. Tonko. Rescued by the buzzer. Thank you, Mr. Chairman.
    Ms. Danis, as you know, the Interagency Coordination 
discussion draft would allow remote surveying data to be 
considered by agencies. Can you explain how aerial data may be 
insufficient?
    Ms. Danis. Aerial data, as we heard testimony earlier this 
morning, provides an extremely limited view of what is on the 
ground. It cannot be accurate with respect to wetlands 
delineation. It cannot be accurate with respect to endangered 
species, vernal ponds, seeps, vegetation, other things that 
require detailed onsite surveys.
    In the provision in the amendments for aerial survey data, 
requiring ancillary Federal authorizations to consider those 
data simply decreases efficiency because it in essence asks, 
for example, States under 401 Certification to consider an 
application based on guesswork the first time, and then to go 
back and to reconsider that same application once they can make 
a true determination of what the onsite environmental impacts 
would be. It is a very inefficient way of approaching it.
    And one way to increase efficiency and reduce delay in the 
permitting processes would be to require the applicants to come 
to the table with completed applications. First, when they 
approach FERC and to not put FERC in the position of routinely 
asking for deficiency, submitting deficiency notices, asking 
for additional environmental data, but to come to the table 
from the outset with a well-conceived plan supported by data.
    Mr. Tonko. Thank you. And in addition to perhaps not 
providing the sort of accuracy we need, do you also see that 
requiring agencies would be ultimately caused to spend more 
time perhaps and more resources in reviewing applications 
because of the concerns you just mentioned?
    Ms. Danis. It would, because each agency under their 
enabling statutes retains the authority to determine when they 
have sufficient and verified data to make that assessment. This 
would inevitably increase those agencies' resource expenditure 
to consider applications that are substantially incomplete from 
an environmental groundtruthing perspective.
    Mr. Tonko. Thank you.
    And Mr. Irvin, in the licensing study improvement section, 
I believe it is page 19 of the Hydropower Policy Modernization 
discussion draft, we would place the onus on agencies rather 
than applicants to prove that a study is not duplicative. How 
might that undermine an agency's ability to get the information 
that agency needs especially when dealing with a potentially 
short timetable?
    Mr. Irvin. Well, agencies are of course stretched thin for 
all of the work that they have to do and anytime you put the 
burden of proof on the agency to basically to disprove 
something you are adding to that burden and you are making it 
much more difficult for them to carry out their 
responsibilities. And what we are talking about here is a 
licensing process where a private entity wants to do something 
to make money at it and it seems fair to require that going 
through that licensing process they bear the burden of making 
the case for why they are entitled to a license.
    Mr. Tonko. Would there be any reason that the burden of 
proof should not fall on the applicant when asked to meet study 
requests by agencies?
    Mr. Irvin. Not that I can think of.
    Mr. Tonko. OK, thank you. And Mr. Irvin, again, at least in 
some cases delays in hydropower application and evaluation seem 
to be primarily caused by failure to provide all of information 
necessary for Federal and State agencies to do their jobs. How 
important is it to get this information and include all 
interested stakeholders early on in the process?
    Mr. Irvin. It is absolutely crucial. If you pick the right 
site and you get the information lined up, the statistics show 
that the process through FERC is actually fairly expeditious, a 
couple of years to get a license. What often happens is that an 
applicant will choose to go through the traditional licensing 
process which takes longer. And also it sometimes is actually 
in the interest, particularly in a license renewal situation, 
for the applicant to have the process take longer, because what 
happens then is that each year they get a 1-year extension of 
their existing license they don't have to undertake any of the 
environmental mitigation that would be required once they get a 
new license, and so continuing the process for a long time 
actually may be in the interest of the applicant.
    That is obviously not a preferred outcome. We want to get 
through these processes. We want to get the new requirements in 
place. We want the applicant to get their license 
expeditiously. We can do that through the existing processes. 
We don't have to weaken existing environmental law in order to 
achieve that.
    Mr. Tonko. Thank you.
    Mr. Chair, is there an opportunity for one more quick 
question?
    Mr. Olson. Yes, sir, absolutely.
    Mr. Tonko. Thank you.
    Mr. Irvin and Ms. Danis, though you provided testimony on 
completely different subjects, your statements were remarkably 
similar in that they both focused much of their time on the 
relationship between the legislation before us and the Clean 
Water Act and how that legislation would undermine it. 
Specifically, you both focused on how the bills would harm 
States' rights under Section 401 of the Clean Water Act as well 
as water rights generally.
    So my question to each of you is, it seems to me that these 
bills are in a large measure attempts to make significant 
changes to Section 401 of the Clean Water Act and to a somewhat 
lesser degree in Section 7 of the Endangered Species Act. Would 
you agree with that assessment?
    Mr. Irvin. Absolutely. That is one of the primary problems 
of these bills, is that it undermines both the Endangered 
Species Act and the Clean Water Act, and in particular for the 
Clean Water Act the State authority to decide what qualifies 
for a water quality certification.
    Mr. Tonko. Thank you, and Ms. Danis?
    Ms. Danis. I agree with what Mr. Irvin just said, and 
additionally it is really important that those comprehensive 
and well-thought-out national policies that are embodied in the 
Clean Water Act and the Clean Air Act are not scuttled for the 
purposes of consideration of private applicants' projects on a 
case-by-case basis, but really affect the Natural Gas Act goals 
of balancing those interests.
    Mr. Tonko. Thank you very much.
    With that Mr. Chair, I yield back.
    Mr. Olson. Thank you, Mr. Tonko. We saved the best for 
last. Now seeing there are no further members wishing to ask 
questions for the second panel, I would like to thank our 
witnesses, Mr. Soth, Mr. Leahey, Mr. Irvin, Ms. Danis, Mr. 
Santa, and Mr. Black for being here today.
    As we conclude, I would like to remind everybody here----
    Mr. Rush. Mr. Chairman?
    Mr. Olson. Yes, sir.
    Mr. Rush. Mr. Chairman, I began this hearing with some very 
serious concerns about the status of our chairman, Fred Upton. 
Have you heard, is he all right?
    Mr. Olson. Chairman Fred Upton is fine. He is doing well. 
He has been working on the healthcare bill. God bless Fred 
Upton.
    As we conclude, I would like to remind everybody here that 
my Houston Rockets are looking to go two games to zero up 
against the San Antonio Spurs. Tipoff is at 9:30 p.m., so take 
a nap.
    I would also like to ask unanimous consent to submit the 
following documents for the record: a letter from the Edison 
Electric Institute; a letter from the Modesto Irrigation 
District and Turlock Irrigation District of California; a 
letter from the Southern California Public Power Authority; a 
letter from the Public Utility District No. 1 of Chelan County, 
Washington--I hope I pronounced that right; a letter from the 
Jordan Hydroelectric Limited Partnership; a letter from the 
County of Pulaski, Virginia; a letter from the NECA, the 
National Electrical Contractors Association; a letter from 
Public Utility District No. 1 of Okanogan County, Washington; a 
letter from the American Public Power Association; a letter 
from the National Electrical Contractors Association; testimony 
of Kevin Colburn on behalf of the American Whitewater; a series 
of letters collected by the Hydropower Reform Coalition; a 
letter from the Western Governors' Association; a letter from 
Mayor Linda Dahlmeier of Oroville, California; a letter from 
the Hydropower Reform Coalition; and finally, the FAST-41 
Federal Permitting Improvement Steering Council Fiscal Year 
2016 Annual Report to Congress.
    That is it. I would ask unanimous consent they be submitted 
for the record. Without objection, so ordered.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ Some of the information does not appear at the conclusion of 
the hearing but has been retained in committee files and is available 
at  http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105916.
---------------------------------------------------------------------------
    All Members, that they have 10 business days to submit 
additional questions for the record. I ask witnesses to submit 
their response in 10 business days of receipt of those 
questions. Without objection, this subcommittee is adjourned.
    [Whereupon, at 1:14 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today the subcommittee begins what I expect will be a 
thoughtful and deliberative process to examine legislation 
addressing pipeline and hydropower infrastructure 
modernization. We will review 10 bills, some of which have 
already been introduced, while others remain in the form of a 
discussion draft as we continue to work out the details. This 
committee has developed an extensive record on the issues these 
bills address. As some will recall, hydropower and gas pipeline 
infrastructure modernization were included in the energy bill 
conference last Congress. We began this Congress by picking up 
where we left off, with hearings examining the challenges and 
opportunities to expanding hydropower generation and promoting 
pipeline infrastructure improvement and expansion. We've heard 
from a variety of stakeholders, including job creators, 
contractors, labor, Tribal interests, consumers, and private 
citizens affected by development. Permitting pipeline and 
hydropower infrastructure often requires extensive consultation 
with more than a dozen Federal and State agencies. Today, we 
will hear from the Federal Energy Regulatory Commission, which 
is the coordinating agency for these reviews. As we move 
forward, we will continue to engage with States and other 
Federal permitting agencies that have a participating role to 
ensure that we are balancing the need to update and modernize 
our infrastructure with important safety, environmental, and 
consumer protections.
    The legislation before us today takes important strides 
toward modernizing our Nation's energy infrastructure. The 
hydropower policy modernization discussion draft encompasses 
many of the bipartisan reforms that received support in both 
the House and the Senate last Congress. The draft would 
designate FERC as the lead agency for hydropower licensing and 
encourage greater coordination and cooperation among the dozens 
of agencies involved in the permitting process. We are also 
examining discussion drafts that would promote new hydropower 
development at existing nonpowered dams and the development of 
closed-loop pumped storage projects, like the one in Ludington, 
Michigan, my home State. As we've heard in testimony before the 
committee, these projects are a win-win; minimal environmental 
impact, new investments, jobs, and added benefits to the grid. 
Another bill would streamline the permitting process for small 
conduit hydro, which is an emerging source of renewable energy 
that can be bolted on to existing infrastructure to provide 
flexible and reliable power.
    We are also taking a close look at legislation to improve 
the process to permit interstate natural gas pipelines and 
cross-border energy infrastructure. The discussion draft 
promoting interagency coordination for review of natural gas 
pipelines will streamline the process and increase public 
transparency. Together, these reforms will bring more certainty 
to the permitting process, which will encourage investments, 
create jobs, and lower prices for consumers--especially those 
that are already paying too much for energy due to pipeline 
bottlenecks and capacity shortages.
    The discussion draft promoting cross-border energy 
infrastructure would, for the first time, enshrine in law a 
uniform and transparent process to authorize crossborder oil 
and natural gas pipelines and electric transmission facilities. 
As we've all seen with the Keystone XL pipeline, the current 
presidential permit process is broken beyond repair. The draft 
legislation would bring predictability and transparency to the 
process. It will allow the technical experts at FERC and DOE to 
review proposed projects without politics getting in the way. 
Importantly, the draft legislation will not touch bedrock 
environmental laws like NEPA, the Clean Air Act, or the Clean 
Water Act. It will also preserve and even strengthen 
opportunities for stakeholders and property owners to have 
their voice heard.
    Together, these 10 bills represent the beginning of an 
ambitious effort to modernize our energy infrastructure, 
increase access to affordable and reliable energy, and lower 
prices for consumers. I want to thank the witnesses for 
appearing before us today, and I look forward to their 
testimony.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
